APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second Circuit
(September 10, 2019) . . . . . . . . . . App. 1
Appendix B Docket Entry Order in the United
States District Court District of
Connecticut with Doc. 121 attached
Defendant’s Response to Plaintiff’s
Motion to Alter or Amend Order
Denying for Relief from Judgment in
the United States District Court
District of Connecticut
(September 5, 2018) . . . . . . . . . . . App. 5
Appendix C Order Re Motion for Relief from
Judgment in the United States
District Court District of Connecticut
(September 11, 2017) . . . . . . . . . App. 14
Appendix D Ruling on Motions for Summary
Judgment in the United States
District Court District of Connecticut
(March 30, 2013) . . . . . . . . . . . . . App. 17

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
18-2965-cv
[Filed September 10, 2019]
_______________________
KEEPERS, INC.,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
CITY OF MILFORD,
)
)
1
Defendant-Appellee. )
_______________________ )
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS
COURT’S LOCAL RULE 32.1.1. WHEN CITING A
SUMMARY ORDER IN A DOCUMENT FILED
WITH THIS COURT, A PARTY MUST CITE
1

The Clerk of the Court is directed to amend the caption as above.

App. 2
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE
NOTATION “SUMMARY ORDER”). A PARTY
CITING A SUMMARY ORDER MUST SERVE A
COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York on the 10th day of September,
two thousand nineteen.
Present: ROSEMARY S. POOLER,
BARRINGTON D. PARKER,
REENA RAGGI,
Circuit Judges.
For Appellant: Jonathan J. Klein, Bridgeport, CT
(Jennifer M. Kinsley, Cincinnati, OH,
Daniel A. Silver, New Britain, CT, on
the brief)
For Appellee:

Scott D. Bergthold, Chattanooga, TN

Appeal from the United States District Court for the
District of Connecticut (Thompson, J.).
ON CONSIDERATION WHEREOF, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
order of said District Court be and it hereby is
AFFIRMED.
Plaintiff-Appellant Keepers, Inc. appeals from the
September 11, 2017 order of the United States District
Court for the District of Connecticut (Thompson, J.),

App. 3
denying its Rule 60(b) motion as barred by the one-year
limitations period applicable to motions under Rule
60(b)(1). See Fed. R. Civ. P. 60(c)(1). Keepers, Inc.
argues that the district court erred in not applying the
“reasonable time” standard applicable to motions under
Rule 60(b)(6). We assume the parties’ familiarity with
the underlying facts, procedural history, and
specification of issues for review.
We review a district court’s ruling on a motion filed
pursuant to Federal Rule of Civil Procedure 60(b) for
abuse of discretion. In re Terrorist Attacks on
September 11, 2001, 741 F.3d 353, 357 (2d Cir. 2013).
It is well settled that “we may affirm on any grounds
for which there is a record sufficient to permit
conclusions of law, including grounds not relied upon
by the district court.” Chesley v. Union Carbide Corp.,
927 F.2d 60, 68 (2d Cir. 1991) (internal quotation
marks omitted).
A party seeking relief under Rule 60(b)(6) is
required “to demonstrate that extraordinary
circumstances warrant relief.” Stevens v. Miller, 676
F.3d 62, 67 (2d Cir. 2012) (internal quotation marks
omitted). “[A] change in decisional law rarely
constitutes the ‘extraordinary circumstances’ required
to prevail on a Rule 60(b)(6) motion.” Id. at 69. Because
Keepers, Inc. has failed to show such extraordinary
circumstances under Rule 60(b)(6) and did not make its
motion in the district court within a reasonable time,
we affirm the district court’s denial of its Rule 60(b)
motion. We need not reach the merits of Keepers, Inc.’s
argument regarding the effect of Reed v. Town of
Gilbert, 135 S. Ct. 2218 (2015), on this case. See S.E.C.

App. 4
v. McNulty, 137 F.3d 732, 741 (2d Cir. 1998) (“The
appeal from the denial of a motion to vacate pursuant
to Rule 60(b) brings up for review only the validity of
that denial, not the merits of the underlying judgment
itself.”); see also Matarese v. LeFevre, 801 F.2d 98, 106
(2d Cir. 1986).
We have considered the remainder of Keepers, Inc.’s
arguments and find them to be without merit.
Accordingly, we hereby AFFIRM the district court’s
order.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

App. 5

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
Civil No. 3:07CV1231 (AWT)
[Filed September 5, 2018]
___________________________________
KEEPERS, INC., d/b/a KEEPERS,
)
f/k/a Sidepockets, Inc., a Connecticut )
Corporation, and AFTER DARK
)
LLC., d/b/a ROMANTIX ADULT
)
EMPORIUM, a Connecticut Limited )
Liability Company,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF MILFORD,
)
CONNECTICUT, a Municipal
)
Corporation,
)
)
Defendant.
)
___________________________________ )
[Docket Entry]
***
09/05/2018 122

ORDER: After a review of the
authorities recited by the parties in
their respective submissions,

App. 6
Plaintiff Keepers, Inc. d/b/a
Keepers’ Fed. Civ. P. 59(e) Motion
to Alter or Amend Court’s
September 11, 2017 Order Denying
Plaintiff’s Fed. R. Civ. P. 60(b)
Motion for Relief from Judgment
(Doc. No. 120 ) is hereby DENIED
for the reasons set forth in the
defendant’s response (See Doc. No.
121 ). Signed by Judge Alvin W.
Thompson on 9/4/2018. (Jerjian,
Olivia) (Entered: 09/05/2018)
***

App. 7
THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF CONNECTICUT
Civil No. 3:07CV01231 (AWT)
Hon. Alvin W. Thompson
[Filed October 29, 2017]
___________________________________
KEEPERS, INC., d/b/a KEEPERS,
)
f/k/a Sidepockets, Inc., a Connecticut )
Corporation, and AFTER DARK
)
LLC., d/b/a ROMANTIX ADULT
)
EMPORIUM, a Connecticut Limited )
Liability Company,
)
)
Plaintiffs,
)
)
vs.
)
)
THE CITY OF MILFORD,
)
CONNECTICUT, a Municipal
)
Corporation,
)
)
Defendant.
)
___________________________________ )
DEFENDANT’S RESPONSE TO PLAINTIFF’S
MOTION TO ALTER OR AMEND ORDER
DENYING FOR RELIEF FROM JUDGMENT
The Court should deny Keepers’ latest motion to
alter or amend. (R. 120.) The City incorporates its
response (R. 117) to Keepers’ prior motion (R. 116), and
need not repeat those arguments here because Keepers
failed to refute them—just as it has failed to refute the

App. 8
Court’s reasons for denying the prior motion. (See R.
119.)
Standard of Review
“A district court’s denial of a party’s motion to alter
or amend judgment under Rule 59(e) is . . . reviewed for
an abuse of discretion.” Munafo v. Metro. Transp.
Auth., 381 F.3d 99, 105 (2d Cir. 2004). “Such motions
must be narrowly construed and strictly applied in
order to discourage litigants from making repetitive
arguments on issues that have been thoroughly
considered by the court.” Range Road Music, Inc. v.
Music Sales Corp., 90 F. Supp. 2d 390, 391-92
(S.D.N.Y. 2000).
I. This Court properly rejected Keepers’ prior
motion as untimely under Rule 60(b)(1).
Keepers does not dispute that: (1) it seeks relief
based on alleged legal error (application of
intermediate, instead of strict, scrutiny), (2) Rule
60(b)(1) is available for seeking such relief, (3) “Rule
60(b)(1) and 60(b)(6) are mutually exclusive, so that
any conduct which generally falls under the former
cannot stand as a ground for relief under the latter,”
(R. 120 at 2 (citation omitted)), and (4) motions under
Rule 60(b)(1) must be brought within a year after the
judgment.
Keepers nevertheless argues that it should be
allowed to bring its motion under Rule 60(b)(6) because
the decision that Keepers bases its “legal error” claim
on (Reed) was not decided until after Rule 60(b)(1)’s
one-year time limit had passed. Thus, Keepers says, “it
was impossible for Keepers to file a motion for relief

App. 9
from judgment premised on Reed within one year of the
Court’s decision.” (R. 120 at 4.)
Of course it was. That is the whole point of the oneyear time limit in Rule 60(b)(1): to preserve the finality
of judgments.
Otherwise—i.e., under Keepers’ view—Reed could
have been decided in 2017. A new decision could always
upset an old judgment. Keepers cites no support for the
notion that the timing of Reed justifies ignoring Rule
60(b)(1)’s one-year time limit.
But, Keepers insists, the federal courts “are
consistent in their view that motions for relief from
judgment based on changes in controlling case law
should be examined under Rule 60(b)(6), which
contains no time limitation.” (R. 120 at 4.)
That is also wrong. United Airlines, Inc. v. Brien,
588 F.3d 158, 175 (2d Cir. 2009) (holding Rule 60(b)(1)
applies to legal error claims). “Litigants may not use
this clause [(b)(6)] to circumvent the time limits of
other provisions of Rule 60(b).” First Fidelity Bank,
N.A. v. Gov’t of Antigua & Barbuda-Permanent
Mission, 877 F.2d 189, 196 (2d Cir. 1989). Keepers
cannot use (b)(6) to avoid (b)(1)’s time limit.
Subsection (b)(6) “is properly invoked only when
there are extraordinary circumstances justifying relief
….” Nemaizer v. Baker, 793 F.2d 58, 63 (2d Cir. 1986)
(internal citations omitted). And “[i]ntervening
developments in the law by themselves rarely
constitute the extraordinary circumstances required for
relief under Rule 60(b)(6).” Agostini v. Felton, 521 U.S.
203, 239 (1997). “[A] mere change in decisional law”

App. 10
does not trigger Rule 60(b)(6) without a further
showing that the change would work an “extreme and
undue hardship” on the moving party. United Airlines,
Inc. v. O’Brien, 588 F.3d 158, 176 (2d Cir. 2009)
(citation omitted).
Keepers does not even argue extreme hardship, so
it cannot invoke 60(b)(6).
Anyway, all of Keepers’ citations are inapposite, as
they fall into one of the two recognized exceptions
where extreme hardship flows from a change in law.
The first involves parties suffering inconsistent
judgments on the same issue. In re Terrorist Attacks on
Sep. 11, 2001, 741 F.3d 353 (2d Cir. 2013); United
Airlines, Inc. v. O’Brien, 588 F.3d 158 (2d Cir. 2009).
The second involves habeas petitions. Marrero
Pichardo v. Ashcroft, 374 F.3d 46 (2d Cir. 2004);
Matarese v. LeFevre, 801 F.2d 98, 106 (2d Cir. 1986)
(holding that Rule 60(b)(6) applies to “a retroactive
change in the law of a habeas corpus proceeding, in
which ‘[c]onventional notions of finality of litigation
have no place’”) (internal citation and quotation marks
omitted).
Agostini v. Felton, 521 U.S. 203 (1997), is also
inapposite. It did not apply Rule 60(b)(6). Rather,
under Rule 60(b)(5), the Court vacated a permanent
injunction with a continuing effect. Id. at 238-39. The
judgment here has no similar effect.
Keepers’ reliance on Dowell v. State Farm Fire &
Cas. Auto In. Co., 993 F.2d 46 (4th Cir. 1993), is
misplaced. Dowell rejected application of Rule 60(b)(6)

App. 11
to a “change in decisional law subsequent to a final
judgment ….” Id. at 48.
Last, Keepers ignores Rule 60(b)(6)’s requirements:
(1) “highly convincing” evidence supporting the motion,
(2) good cause for failing to act sooner, and (3) showing
that granting relief would not impose an undue
hardship. Kotlicky v. U.S. Fid. & Guar. Co., 817 F.2d 6
(2d Cir. 1987). Keepers fails all three. (R. 117 at 2-13.)
First, there is no “highly convincing” evidence that
the Reed sign case overturned the Supreme Court’s onpoint adult business cases. In addition to the federal
appellate cases cited previously (id. at 10), add this
Court’s decision in “Q”- Lungian Enters., Inc. v. Town
of Windsor Locks, ---F. Supp. 3d---, 2017 WL 4127898,
*5 (D. Conn. Sep. 18, 2017). Second, Keepers presents
no good cause for failing to act sooner, and its
argument that it filed its principal briefs before Reed
was decided is disingenuous. Keepers still had well
over four months, and a round of Supplemental
Briefing, in which to assert its claims to the Second
Circuit. Keepers did not assert Reed when it petitioned
that court for rehearing or the Supreme Court for
certiorari. Third, prolonging a 10 year-old case would
impose undue hardship on the City. (R. 12-13.)
For all of these reasons, the Court should deny
Keepers’ latest motion.
II. Keepers’ waiver of the First Amendment issue
during its first appeal is another reason to
deny its motion.
Keepers waived its current First Amendment
challenges because it did not raise any First

App. 12
Amendment challenge in its first appeal. It cannot do
so now.
“Where an issue was ripe for review at the time of
an initial appeal but was nonetheless foregone, it is
considered waived and the law of the case doctrine bars
the district court on remand and an appellate court in
a subsequent appeal from reopening such issues unless
the mandate can reasonably be understood as
permitting it to do so.” United States v. Quintieri, 306
F.3d 1217, 1229 (2d Cir. 2002) (internal citations and
quotation marks omitted).
Here, Keepers admits that in its first appeal to the
Second Circuit, it argued only that this Court
“improperly considered summary judgment evidence”
relative to Keepers’ vagueness claim. (R. 120 at 3.)
Keepers raised no First Amendment issue in its appeal,
even though it could have. Keepers’ First Amendment
issue is therefore waived and cannot be considered.
For this additional reason, the Court should deny
Keepers’ motion.
Conclusion
For these reasons, the Court should deny Keepers’
motion.

App. 13
Respectfully submitted,
/s/ Scott D. Bergthold
Scott D. Bergthold Bar No. ct25501
Law Office of Scott D. Bergthold, PLLC
2290 Ogletree Ave., Suite 106
Chattanooga, TN 37421
(423) 899-3025
sbergthold@sdblawfirm.com
***
[Certificate of Service Omitted in the
Printing of this Appendix]

App. 14

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
Civil No. 3:07CV1231 (AWT)
[Filed September 11, 2017]
___________________________________
KEEPERS, INC., d/b/a KEEPERS,
)
f/k/a Sidepockets, Inc., a Connecticut )
Corporation, and AFTER DARK
)
LLC., d/b/a ROMANTIX ADULT
)
EMPORIUM, a Connecticut Limited )
Liability Company,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF MILFORD,
)
CONNECTICUT, a Municipal
)
Corporation,
)
)
Defendant.
)
___________________________________ )
ORDER RE MOTION FOR RELIEF FROM
JUDGMENT
Plaintiff Keepers, Inc., d/b/a Keepers’ Motion for
Relief from Judgment (Doc. No. 116) is hereby
DENIED.

App. 15
Keepers moves for relief from judgment pursuant to
Fed. R. Civ. P. 60(b)(6) in light of the Supreme Court’s
decision in Reed v. Town of Gilbert, 135 S. Ct. 2218
(2015). Keepers states that “the Supreme Court has
dramatically changed its approach to contentneutrality and now employs a more stringent test when
the government regulates categories of speech. See
Reed v. Town of Gilbert, 135 S. Ct. 2218 (2015).” Doc.
No. 116 at 3. “Rule 60(b)(1) is available for a district
court to correct legal errors by the court.” United
Airlines, Inc. v. Brien, 588 F.3d 158, 175 (2d Cir. 2009)
(internal citation and quotation marks omitted). Also,
“Rule 60(b)(1) and 60(b)(6) are mutually exclusive, so
that any conduct which generally falls under the
former cannot stand as a ground for relief under the
latter.” United States v. Erdoss, 440 F.2d 1221, 1223
(2d Cir. 1971). Thus, only Rule 60(b)(1) was available
to Keepers. A motion under 60(b)(1) must be made “no
more than a year after the entry of judgment or order
or the date of the proceeding.” Fed. R. Civ. P. 60(c)(1).
Here the judgment entered on March 30, 2013 and
Keepers appealed. Moreover, although Reed was
decided prior to October 23, 2015, when the parties
filed supplemental briefs with the Second Circuit,
Keepers did not raise this issue then or when it
petitioned the Second Circuit for a rehearing.
The Clerk shall close this case.
It is so ordered.

App. 16
Dated this 11th day of September 2017, at Hartford,
Connecticut.
/s/AWT
Alvin W. Thompson
United States District Judge

App. 17

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
Civil No. 3:07CV1231 (AWT)
[Filed March 30, 2013]
___________________________________
KEEPERS, INC., d/b/a KEEPERS,
)
f/k/a Sidepockets, Inc., a Connecticut )
Corporation, and AFTER DARK
)
LLC., d/b/a ROMANTIX ADULT
)
EMPORIUM, a Connecticut Limited )
Liability Company,
)
)
Plaintiffs,
)
)
v.
)
)
THE CITY OF MILFORD,
)
CONNECTICUT, a Municipal
)
Corporation,
)
)
Defendant.
)
___________________________________ )
RULING ON MOTIONS FOR
SUMMARY JUDGMENT
Plaintiff Keepers, Inc. (“Keepers”) is a Connecticut
corporation operating a cabaret-style nightclub in
Milford. The establishment features live clothed and

App. 18
semi-nude dancing for adult patrons. Plaintiff After
Dark LLC (“After Dark”) does business as Romantix
Adult Emporium, a retail adult entertainment
establishment that sells, exhibits, and distributes
erotic books, magazines, video tapes and motion picture
filmfare. Defendant City of Milford (the “City”) is a
municipal corporation chartered under the laws of the
State of Connecticut. The parties have filed cross
motions for summary judgment relating to the
constitutionality of two versions of a City ordinance
regulating sexually oriented businesses.
The plaintiffs challenge the constitutionality of the
ordinance arguing that it violates the First Amendment
(as an impermissible prior restraint, an undue burden
on protected expression, overbroad, and an
impermissible impairment on the right to freely
associate); the Fourth Amendment; the Takings Clause
of the Fifth Amendment; the Ninth Amendment; and
the Fourteenth Amendment (as vague as-applied,
facially vague, and causing a deprivation of liberty
interests without due process). They also contend it
violates Conn. Gen. Stat. § 8-2.
For the reasons set forth below, the plaintiffs’
motion for partial summary judgment is being granted
in part and denied in part, and the defendant’s motion
for summary judgment is being granted in part and
denied in part.
I. FACTUAL BACKGROUND
Joseph Regensberger assumed ownership of
Keepers in approximately January 2001. The business
was operating as a restaurant and bar at the time

App. 19
under the name “Sidepockets.” In 2003, Regensburger
decided to convert Sidepockets into an adult cabaret.
This renovation involved removing the kitchen to make
room for a dressing room for dancers. The conversion
also included building a stage, putting in carpets,
building a DJ booth, and making a VIP area. At the
time, adult cabarets such as Keepers were subject to
Milford’s Ordinance Regulating Adult Oriented
Establishments, promulgated in 1996.
In 2003, the City passed an amendment to Chapter
2.3 of the City Ordinance Regulating Adult-Oriented
Establishments. Keepers believed the provisions of the
2003 ordinance to be more restrictive than those of the
1996 ordinance.
Around this time, Regensberger agreed to a
suspension of Keepers’ liquor license for four days as a
result of alleged violations on the premises such as
dancers improperly exposing and touching themselves,
and various other violations occurring in March 2003.
In 2007, Regensberger lost his liquor license in
Connecticut as a result of prostitution activities
occurring in 2005 at another adult entertainment
business he owned. His inability to hold a liquor
license, coupled with the more restrictive 2003
ordinance, contributed to Regensberger’s ultimate
decision to sell Keepers to one of his employees, Angela
Silano, for $250,000 in 2008. Regensberger assists
Silano in this litigation in an unpaid capacity.
Romantix Adult Emporium (operated by After Dark
LLC) has a main retail floor where merchandise is
displayed, and an adult “arcade” in the rear of the
establishment which consists of enclosed private booths

App. 20
outfitted for the viewing of adult movies. After Dark
joins Keepers in its claims relating to the 2007
ordinance, but not the 2003 ordinance.
In 2003, the Milford Board of Aldermen voted to
amend the 1996 Ordinance Regulating Adult-Oriented
Establishments. At the meeting, various members of
the community spoke in favor of the amendment,
voicing concerns about the potential deleterious effect
sexually oriented businesses1 might have on their
community. At the meeting, the then-city attorney
Marilyn Lipton submitted materials for the Board to
consider regarding the secondary effects of sexually
oriented businesses in formulating the amendment. In
enacting the amendment in August 2003, the Board
stated that “this ordinance is based on evidence of the
adverse secondary effects of adult uses that is within
the common knowledge of municipalities and is widely
reported in judicial opinions, media reports, land use
studies, and crime impact reports made available to the
Board of Aldermen.” Milford, Conn., Ordinances § 2.31(1) (2003) (Pls.’ Mem. Supp. Mot. Summ. J. Ex. B).
Among other changes, the 2003 ordinance included a
section entitled “Additional regulations concerning live
public nudity on premises.” Id. at § 2.3-3(7). This
section provides:
A. It shall be a violation of this Chapter for a
patron, employee, or any other person to
1

The 2003 and 2007 ordinances speak in terms of Adult Oriented
Establishments, but because much of the case law on this topic as
well as the briefing by the parties uses the term “sexually oriented
business” or “SOB”, the court uses the term “sexually oriented
business.”

App. 21
knowingly or intentionally, in an adultoriented establishment, appear in a state of
nudity, regardless of whether such public
nudity is expressive in nature.
B. It shall be a violation of this Chapter for a
person to knowingly or intentionally in an
adult-oriented establishment, appear in a
semi-nude condition unless the person is an
employee who, while semi-nude, shall be at
least six (6) feet from any patron or customer
and on a stage at least eighteen (18) inches
from the floor. . . .
C. It shall be a violation of this Chapter for any
employee, while semi-nude in an adultoriented establishment, to knowingly or
intentionally receive any pay or gratuity by
direct physical contact with any patron or
customer or for any patron or customer to
knowingly or intentionally pay or give any
gratuity by direct physical contact with any
employee, while said employee is semi-nude
in the adult-oriented establishment.
D. It shall be a violation of this Chapter for any
employee, while semi-nude in an adultoriented establishment, to knowingly or
intentionally touch a customer or the
clothing of a customer.
Id. The 2003 ordinance also included language
requiring sexually oriented businesses to allow periodic
inspections by the City, see id. at § 2.3-3(6), and
preventing applicants for a license under the ordinance

App. 22
from being approved if the applicant has been convicted
of, or pled nolo contendre to, certain sexually-related
crimes. See id. at § 2.3-4(3)(i).
Keepers filed suit in 2003, alleging that these
regulations are unconstitutional. (See Sidepockets, Inc.,
d/b/a Keepers v. City of Milford, No. 3:03-cv-2134
(AWT).) During the pendency of the litigation, the City
repealed the 2003 ordinance and enacted a superseding
ordinance on May 7, 2007. (See Milford, Conn.,
ordinances ch. 2.3 (2007) (Pls.’ Mot. Summ. J. Ex. C.).)
The City then filed a motion to dismiss Keepers’ case as
moot, which was denied.
The Board of Aldermen considered additional
material on secondary effects when passing the 2007
ordinance, but the ordinance retains roughly similar
prohibitions on nudity, touching, space requirements
between patrons and dancers (“buffer zones”), receipt
of gratuity, and licensing as were in the 2003
ordinance. (See ch. 2.3 (2007).) The 2007 ordinance also
places more stringent requirements on operators of
booths intended to exhibit sexually explicit films or
videos (“adult arcades”). For instance, the 2007
ordinance requires brighter illumination in viewing
booths and requires that:
the interior of the premises shall be configured
in such a manner that there is an unobstructed
view from an operator’s station of every area of
the premises, including the interior of each
viewing room . . . to which any patron is
permitted access for any purpose. . . . The view
required . . . must be by direct line of sight from
the operator’s station. It is the duty of the

App. 23
operator to ensure that at least one employee is
on duty and situated in each operator’s station
at all times that any patron is on the premises.
It shall be the duty of the operator . . . to ensure
that the view area specified in this paragraph
remains unobstructed by any doors, curtains,
walls, merchandise, display racks or other
materials or enclosures at all times that any
patron is present . . . .
§ 2.3-13(a)(7) (2007). Keepers, joined by After Dark,
filed a second action challenging the constitutionality
of the 2007 ordinance. The claims in the previous suit
concerning the 2003 ordinance were joined with the
claims in this case.
II. LEGAL STANDARD
A motion for summary judgment may not be
granted unless the court determines that there is no
genuine issue of material fact to be tried and that the
facts as to which there is no such issue warrant
judgment for the moving party as a matter of law. Fed.
R. Civ. P. 56(a). See Celotex Corp. v. Catrett, 477 U.S.
317, 322-23 (1986); Gallo v. Prudential Residential
Servs., 22 F.3d 1219, 1223 (2d Cir. 1994). Rule 56(c)
“mandates the entry of summary judgment . . . against
a party who fails to make a showing sufficient to
establish the existence of an element essential to that
party’s case, and on which that party will bear the
burden of proof at trial.” Celotex Corp., 477 U.S. at 322.
When ruling on a motion for summary judgment,
the court must respect the province of the jury. The
court, therefore, may not try issues of fact. See, e.g.,

App. 24
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255
(1986); Donahue v. Windsor Locks Bd. of Fire Comm’rs,
834 F.2d 54, 58 (2d Cir. 1987); Heyman v. Commerce &
Indus. Ins. Co., 524 F.2d 1317, 1319-20 (2d Cir. 1975).
It is well-established that “[c]redibility determinations,
the weighing of the evidence, and the drawing of
legitimate inferences from the facts are jury functions,
not those of the judge.” Anderson, 477 U.S. at 255.
Thus, the trial court’s task is “carefully limited to
discerning whether there are any genuine issues of
material fact to be tried, not to deciding them. Its duty,
in short, is confined . . . to issue-finding; it does not
extend to issue-resolution.” Gallo, 22 F.3d at 1224.
Summary judgment is inappropriate only if the
issue to be resolved is both genuine and related to a
material fact. Therefore, the mere existence of some
alleged factual dispute between the parties will not
defeat an otherwise properly supported motion for
summary judgment. An issue is “genuine . . . if the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson, 477 U.S.
at 248 (internal quotation marks omitted). A material
fact is one that would “affect the outcome of the suit
under the governing law.” Id. As the Court observed in
Anderson: “[T]he materiality determination rests on
the substantive law, [and] it is the substantive law’s
identification of which facts are critical and which facts
are irrelevant that governs.” Id. Thus, only those facts
that must be decided in order to resolve a claim or
defense will prevent summary judgment from being
granted. When confronted with an asserted factual
dispute, the court must examine the elements of the
claims and defenses at issue on the motion to

App. 25
determine whether a resolution of that dispute could
affect the disposition of any of those claims or defenses.
Immaterial or minor facts will not prevent summary
judgment. See Howard v. Gleason Corp., 901 F.2d
1154, 1159 (2d Cir. 1990).
When reviewing the evidence on a motion for
summary judgment, the court must “assess the record
in the light most favorable to the non-movant and . . .
draw all reasonable inferences in its favor.” Weinstock
v. Columbia Univ., 224 F.3d 33, 41 (2d Cir. 2000)
(quoting Delaware & Hudson Ry. Co. v. Consol. Rail
Corp., 902 F.2d 174, 177 (2d Cir. 1990)). Because
credibility is not an issue on summary judgment, the
nonmovant’s evidence must be accepted as true for
purposes of the motion. Nonetheless, the inferences
drawn in favor of the nonmovant must be supported by
the evidence. “[M]ere speculation and conjecture is
insufficient to defeat a motion for summary judgment.”
Stern v. Trustees of Columbia Univ., 131 F.3d 305, 315
(2d Cir. 1997) (internal quotation marks omitted)
(quoting Western World Ins. Co. v. Stack Oil, Inc., 922
F.2d 118, 121 (2d. Cir. 1990)). Moreover, the “mere
existence of a scintilla of evidence in support of the
[nonmovant’s] position will be insufficient; there must
be evidence on which [a] jury could reasonably find for
the [nonmovant].” Anderson, 477 U.S. at 252.
Finally, the nonmoving party cannot simply rest on
the allegations in its pleadings since the essence of
summary judgment is to go beyond the pleadings to
determine if a genuine issue of material fact exists. See
Celotex Corp., 477 U.S. at 324. “Although the moving
party bears the initial burden of establishing that there

App. 26
are no genuine issues of material fact,” Weinstock, 224
F.3d at 41, if the movant demonstrates an absence of
such issues, a limited burden of production shifts to the
nonmovant, who must “demonstrate more than some
metaphysical doubt as to the material facts, . . . [and]
must come forward with specific facts showing that
there is a genuine issue for trial.” Aslanidis v. United
States Lines, Inc., 7 F.3d 1067, 1072 (2d Cir. 1993)
(quotation marks, citations and emphasis omitted).
Furthermore, “unsupported allegations do not create a
material issue of fact.” Weinstock, 224 F.3d at 41. If the
nonmovant fails to meet this burden, summary
judgment should be granted. If the nonmoving party
does not respond to the motion, the court may accept as
true the moving party’s factual statements. See D.
Conn. L. Civ. R. 56(a)1 (“All material facts set forth in
[the moving party’s Rule 56(a)1] statement will be
deemed admitted unless controverted....). Even if the
motion is unopposed, however, the court will not grant
summary judgment unless it determined that the
moving party is entitled to judgment as a matter of
law. See Vermont Teddy Bear Co. v. 1-800 Beargram
Co., 373 F.3d 241, 242 (2d Cir. 2004).
III. DISCUSSION
A. Mootness of Claim re 2003 Ordinance
The defendant contends that the court lacks subject
matter jurisdiction to hear Keepers’ constitutional
challenge to the 2003 ordinance, because the City’s
repeal of the ordinance, effective May 18, 2007,
rendered Keepers’ challenge moot. Keepers maintains
that its claim for nominal damages pursuant to its

App. 27
claim based on the 2003 ordinance is justiciable upon
proof of a substantive constitutional violation.2
“Claims for damages or other monetary relief
automatically avoid mootness, so long as the claim
remains viable.” Stokes v. Vill. of Wurtsboro, 818 F.2d
4, 6 (2d Cir. 1987); see also Beyah v. Coughlin, 789 F.2d
986, 988-89 (2d Cir. 1986) (holding that an allegedly
unconstitutional practice, which no longer affects
plaintiff, “may well moot [plaintiff’s] claims for
declaratory and injunctive relief” but does not moot the
request for damages). Additionally, “nominal damages
are available in actions alleging violations of
constitutionally protected rights.” Fox v. Bd. of Trs. of
the State Univ., 42 F.3d 135, 141 (2d Cir. 1994); see
also Memphis Cmty. Sch. Dist. v. Stachura, 477 U.S.
299, 308-09 n.11 (1986) (noting that nominal damages
are recoverable for violation of First Amendment rights
without proof of actual injury); Buckhannon Bd. & Care
v. W. Va. Dept. of Health & Human Res., 532 U.S. 598,
608-09 (2001) (“[S]o long as the plaintiff has a cause of
action for damages, a defendant’s change in conduct
will not moot the case.”). The court concludes that
Keepers’ challenge to the repealed 2003 ordinance is
not moot.
Therefore, the City’s motion for summary judgment
on the basis that the challenge to the 2003 ordinance is
moot is being denied.
2

While Keepers did not specifically claim nominal damages in the
complaint, the court considers its claim for “damages” as including
a claim for nominal damages. See Dean v. Blumenthal, 577 F.3d
60, 66 n.3 (2d Cir. 2009) (“Although Dean’s complaint seeks only
‘damages,’ this term can include nominal damages.”).

App. 28
B. First Amendment – Undue Burden on
Protected Expression
The plaintiffs and the defendant each move for
summary judgment on the claim that the 2003 and
2007 ordinances constitute an undue burden on
protected expressive conduct in violation of the First
Amendment.
The First Amendment, which applies to the states
through the Fourteenth Amendment, see Thornhill v.
Alabama, 310 U.S. 88, 95 (1940), provides, “Congress
shall make no law . . . abridging the freedom of speech
. . . .” U.S. Const. Amend. I. Speech may include
expressive conduct. See, e.g., Texas v. Johnson, 491
U.S. 397, 404-06 (1989); Clark v. Cmty. for Creative
Non-Violence, 468 U.S. 288, 293 (1984).
Adult entertainment, such as that the plaintiffs
provide, is protected expression under the First
Amendment, however the Supreme Court has
consistently held that nude dancing and the
presentation of adult media is expressive conduct that
“falls within the outer ambit of the First Amendment’s
protection.” City of Erie v. Pap’s A.M., 529 U.S. 277,
289 (2000); see also Barnes v. Glen Theatre, Inc., 501
U.S. 560, 565-66 (1991) (Nude dancing “is expressive
conduct within the outer perimeters of the First
Amendment, though we view it as only marginally
so.”); Schad v. Mount Ephraim, 452 U.S. 61, 66 (1981)
(“[N]ude dancing is not without its First Amendment
protections.”); American Mini Theaters, 427 U.S. 50, 71
(1976) (stating that “the First Amendment will not
tolerate the total suppression of erotic materials that
have some arguably artistic value, it is manifest that

App. 29
society’s interest in protecting this type of expression is
of a wholly different, and lesser, magnitude than the
interest in untrammeled political debate”). Thus,
municipal ordinances that regulate nude dancing and
the presentation of adult media are subject to
constitutional scrutiny.
Regulations of speech based on content “are
presumptively invalid,” but may be upheld if the
restriction passes strict scrutiny. Hobbs v. Cnty. of
Westchester, 397 F.3d 133, 149 (2d Cir. 2005), cert.
denied, 546 U.S. 815 (2005) (quoting R.A.V. v. City of
St. Paul, 505 U.S. 377, 382 (1992) and citing Boos v.
Barry, 485 U.S. 312, 321 (1988)). However, regulations
of speech on a basis other than content receive
intermediate scrutiny analysis. See, e.g., Pap’s A.M.,
529 U.S. at 289; City of Los Angeles v. Alameda Books,
Inc., 535 U.S. 425, 440 (2002) (plurality opinion); Ward
v. Rock Against Racism, 491 U.S. 781, 798 n.6 (1989);
United States v. O’Brien, 391 U.S. 367, 377 (1968);
Hobbs, 397 F.3d at 149.
To determine whether a regulation of expressive
conduct is based on content or is content-neutral:
The principal inquiry . . . is whether the
government has adopted a regulation of speech
because of disagreement with the message it
conveys. Government regulation of expressive
activity is content neutral so long as it is
justified without reference to the content of the
regulated speech. A regulation that serves
purposes unrelated to the content of expression
is deemed neutral, even if it has an incidental
effect on some speakers or messages but not

App. 30
others. Thus, a regulation that targets only
potentially harmful secondary effects of speech,
rather than the contents of the speech itself or
the listener’s agreement or disagreement with
those contents, is deemed content-neutral.
Id. at 149-50 (internal quotation marks and citations
omitted).
The 2003 and 2007 ordinances are content-neutral.
The stated purpose of the 2003 ordinance is to “protect
and preserve the health, safety and welfare of the
patrons of [sexually oriented businesses], as well as the
health, safety and welfare of the City’s citizens . . .
because such businesses may and do generate
secondary effects which are detrimental to
neighborhoods.” § 2.3-1(1). The ordinance identifies the
secondary effects associated with sexually oriented
businesses as including “personal and property crimes,
prostitution, potential spread of disease, lewdness,
public indecency, illicit drug use and drug trafficking,
negative impacts on property values, urban blight,
pornographic litter, and sexual assault and
exploitation.” § 2.3-1(6).
Similarly, the stated purpose of the 2007 ordinance
is “to regulate sexually oriented businesses in order to
promote the health, safety, and general welfare of the
citizens of the City, and to establish reasonable and
uniform regulations to prevent the deleterious
secondary effects of sexually oriented businesses within
the City.” § 2.3-1(a). The ordinance identifies such
secondary effects as including “personal and property
crimes, prostitution, lewdness, public indecency,
unsanitary conditions, potential spread of disease,

App. 31
obscenity, illicit drug use and drug trafficking, negative
impacts on surrounding properties, blight, litter, and
sexual assault and exploitation.” § 2.3-1(b)(1). Both
ordinances include express findings and cite the
evidence the Board relied upon in reaching the
conclusion that sexually oriented businesses are
associated with the listed adverse secondary effects.
See § 2.3-1(2) and (6) (2003) and § 2.3-1(b)(1) (2007).
Because the 2003 and 2007 ordinances are not an
attempt to regulate the primary effects of the
expression, but rather target secondary effects of the
expression, the court concludes that the ordinances are
content-neutral time, place, and manner regulations,
and thus subject to intermediate scrutiny. The
standard for evaluating restrictions on symbolic speech
such as erotic dancing is set forth in United States v.
O’Brien. See Pap’s A.M., 529 U.S. at 289 (citing United
States v. O’Brien, 391 U.S. 367, 377 (1968)). “Under
O’Brien, an ordinance is valid if (1) it is within the
constitutional power of the government; (2) it furthers
an important or substantial government interest;
(3) the government interest is unrelated to the
suppression of free expression; and (4) the restriction
is not greater than is essential to the furtherance of the
government interest.” White River Amusement Pub,
Inc. v. Town of Hartford, 481 F.3d 163, 169 (2d Cir.
2007).
1. O’Brien’s First Element
The plaintiffs appear to argue that the City lacks
the power to enact the ordinances. However, it is
clearly within the government’s lawful police powers to
enact measures to protect public health and safety. See

App. 32
Pap’s A.M., 529 U.S. at 296 (the city’s “efforts to protect
public health and safety are clearly within the city’s
police powers”); Barnes, 501 U.S. at 567; Conn. Gen.
Stat. § 7-148(7)(A)(ii). Therefore, this element is
satisfied as to both ordinances.
2. O’Brien’s Second Element
O’Brien also requires that an ordinance further an
important or substantial government interest. See 391
U.S. at 377. The plaintiffs argue that the ordinances
fail this test, or at the very least, genuine issues of
material fact exist as to whether the materials relied
on by the City demonstrate that this test is satisfied,
thus making summary judgment in favor of the
defendant inappropriate. The City argues that the
ordinances are sufficiently supported by evidence in the
legislative record and thus satisfy this element.
“[T]o demonstrate that an ordinance furthers a
substantial government interest, a municipality must
show that in enacting the legislation, it relied on some
evidence ‘reasonably believed to be relevant’ to the
problem of negative secondary effects.” White River
Amusement Pub, Inc., 481 F.3d at 171 (quoting City of
Renton v. Playtime Theaters, Inc., 475 U.S. 41, 51
(1986)). A municipality must provide some evidence of
a connection between “the speech regulated by the
ordinance and the secondary effects that motivated the
adoption of the ordinance.” Alameda Books, 535 U.S. at
441. However, “a city need not prove that such a link
exists or prove that its ordinance will be effective in
suppressing secondary effects.” White River
Amusement Pub, Inc., 481 F.3d at 171.

App. 33
While “[t]he municipality’s evidence must fairly
support the municipality’s rationale for its ordinance,”
Alameda Books, 535 U.S. at 438, this inquiry takes the
form of a burden-shifting analysis.
If plaintiffs fail to cast direct doubt on this
rationale, either by demonstrating that the
municipality’s evidence does not support its
rationale or by furnishing evidence that disputes
the municipality’s factual findings, the
municipality meets the standard set forth in
Renton. If plaintiffs succeed in casting doubt on
a municipality’s rationale in either manner, the
burden shifts back to the municipality to
supplement the record with evidence renewing
support for a theory that justifies its ordinance.
Alameda Books, Inc., 535 U.S. at 438-49 (2002) (citing
Pap’s A.M., 529 U.S. at 298). In commenting on the
breadth of evidence a city may consider, the Second
Circuit has noted:
Based on this standard, the Supreme Court has
upheld ordinances where a city conducted
hearings and reviewed a report on the
experience of other cities, Renton, 475 U.S. at
44; expressly relied on the evidentiary
foundation in prior judicial opinions as well as
the city’s own findings, Pap’s A.M., 529 U.S. at
296-97; and relied on a study conducted many
years prior to enactment of the ordinance,
Alameda Books, 535 U.S. at 430.
White River Amusement Pub, Inc., 481 F.3d at 171
(internal citations partially omitted).

App. 34
Because the briefing on this element does not
distinguish between the 2003 and 2007 ordinance, the
court assumes that the parties’ arguments apply
equally to both. The legislative history of the 2007
ordinance is slightly different from that of the 2003
ordinance.
On June 2, 2003, the Board of Aldermen took up the
issue of amending the City’s Ordinance Regulating
Adult-Oriented Establishments that was enacted in
1996. The Board placed into the record 43 studies on
the negative secondary effects of adult businesses, but
postponed the vote on the proposed amendments until
August 4, 2003, when the Board voted to amend the
ordinance.
The policy statement, set forth in § 2.3-1 of the 2003
ordinance, provides:
This ordinance is based on evidence of the
adverse secondary effects of adult uses that is
within the common knowledge of municipalities
and is widely reported in judicial opinions,
media reports, land use studies, and crime
impact reports made available to the Board of
Aldermen, several of which are set forth herein.
Additionally, the Board of Aldermen relies on
this body of secondary effects evidence to
support time, place, and manner regulations of
sexually oriented businesses.
The ordinance states that in support of these findings
the Board of Aldermen relied upon “findings of
secondary effects” discussed in cases such as Pap’s
A.M., 527 U.S. 277, Alameda Books, 535 U.S. 425,

App. 35
Renton, 475 U.S. 41, and others. § 2.3-1(1) (2003). The
ordinance further states that it “relies on reports
concerning secondary effects occurring in and around
sexually oriented businesses” in cities such as Phoenix,
Minneapolis, and Houston. Id. Finally, the Board of
Aldermen relied on the paper “Sexually Oriented
Businesses: An Insider’s View,” and the Report of the
Attorney General’s Working Group on the Regulation
of Sexually Oriented Businesses. See id.
The legislative record in support of the 2007
ordinance includes but is not limited to the court
opinions, reports and studies relied upon by the Board
of Aldermen in support of the 2003 ordinance.3 The
additional evidence included opinions, reports, and
studies supporting the conclusion that sexually
oriented businesses are linked to a variety of secondary
effects. The Board of Aldermen was also presented with
an article authored by the plaintiffs’ expert witness
challenging many of the studies supporting the
negative secondary effects of adult businesses
presented to the City.
Prior to voting to adopt the 2007 ordinance, the
Board of Aldermen viewed a PowerPoint presentation
by Attorney Bergthold, outside counsel for the city,
which outlined and summarized the secondary effects
reports, studies, and related court opinions previously
3

Included in the legislative record is a letter from the City’s
attorney, dated April 20, 2007, to “All Members of the Milford
Board of Aldermen”, encouraging the board members to review the
City’s materials regarding the secondary effects associated with
adult businesses prior to the public hearing on the proposed
ordinance scheduled for May 7, 2007.

App. 36
provided to the Board. The 2007 ordinance states that
the Board relied on these various sources in enacting
the ordinance. See § 2.3-1(b).
a. Relationship of Evidence the City
Relies Upon to the Secondary Effects
It Identifies
The plaintiffs argue that the City’s evidence does
not demonstrate that the regulations are likely to
successfully ameliorate the adverse secondary effects
targeted by the ordinances. Specifically, the plaintiffs
attack the sufficiency of the evidence, claiming that it
is “prepackaged,” and that the City “failed to undertake
any attempt to determine whether the . . . studies it
relied upon were relevant to the experience of Milford.”
(Pls.’ Mem. Resp. Def.’s Mot. Summ. J. 24.) While “a
city must provide some evidence of a connection
between the speech regulated by the ordinance and the
secondary effects that motivated the adoption of the
ordinance,” a municipality “need not prove that such a
link exists or prove that its ordinance will be effective
in suppressing secondary effects.” White River
Amusement Pub, Inc., 481 F.3d at 171 (citing Alameda
Books, 535 U.S. at 441). “The First Amendment does
not require a city, before enacting such an ordinance, to
conduct new studies or produce evidence independent
of that already generated by other cities, so long as
whatever evidence the city relies upon is reasonably
believed to be relevant to the problem the city
addresses.” Renton, 475 U.S. at 51; see also Alameda
Books, 535 U.S. at 439 (explicitly rejecting the
suggestion that a city be required to produce empirical

App. 37
data in support of the anticipated efficacy of its
regulations).
The plaintiffs also argue that because many of the
materials the City relies on in enacting the ordinances
involve municipal zoning ordinances and not licensing
regulations, they cannot be reasonably relied upon.
However, the fact that evidence is relevant to one type
of issue does not, in and of itself, mean that it cannot
be highly probative of an unrelated issue. The test is
the relationship of the evidence to the issue under
consideration, not whether it is also related to some
other issue. Here, the relationship between the
evidence considered by the Board and the ordinances is
one where the evidence considered supports the
rationale for the ordinances. Thus, it was reasonable
for the Board to rely on that evidence.
The evidence considered by the Board of Alderman
included cases documenting unsanitary conditions
created by illicit sexual contact between patrons and
performers. See, e.g., California v. LaRue, 409 U.S.
109, 111 (1972) (“Customers were found engaging in
oral copulation with women entertainers; customers
engaged in public masturbation; and customers placed
rolled currency either directly into the vagina of a
female entertainer, or on the bar in order that she
might pick it up herself.”); DLS, Inc. v. City of
Chattanooga, 107 F.3d 403, 411 (6th Cir. 1997)
(“Furthermore, particular dances described in the
record—such as one instance in which a dancer invited
customers to spoon-feed themselves whipped cream off
of her breasts, buttocks, and vaginal area—pose a
particularly acute risk of the transmission of disease.”).

App. 38
Also included was a report from a police department on
the health conditions inside adult businesses in
Tucson, Arizona, including a study of fluid samples
taken from such establishments which tested positive
for semen in well over 80% of samples taken.
Additionally, a 1997 report from the Houston Sexually
Oriented Business Ordinance Revision Committee
discussed anonymous sex through book store “glory
holes” and sexual contact in VIP rooms at strip clubs.
Finally, the legislative record included a report
discussing sexual contact during private dance
activities; that report reflected that 67% of strippers
interviewed had had their genitals grabbed in the strip
club, and that 78% had had men expose their penises
or masturbate in front of them. Such material is
relevant for a Board seeking to regulate behavior
within sexually oriented businesses because of a
concern about unsanitary conditions and public health
risks.
Annex Books, Inc. v. City of Indianapolis, 581 F.3d
460 (7th Cir. 2009), which the plaintiffs rely on with
respect to this issue, is distinguishable. In finding that
the evidence relied on by the defendant in enacting its
adult business ordinance was insufficient, the Seventh
Circuit noted that the zoning ordinances contained in
the supporting material were different in nature than
the ordinance at issue, which imposed hours of
operation restrictions on adult bookstores. Also, it
observed that “[m]ore importantly, the studies to which
the City points concern adult business that offer live
sex shows, viewing booths or both. . . . Three of the four
plaintiffs in this suit, however, do not offer live
entertainment.” Id. at 463. In other words, the

App. 39
ordinances relied upon by the city in Annex Books
differed not only in form, but in substance from the
ordinance the city ultimately enacted. Cf. Abilene
Retail #30, Inc. v. Bd. of Comm’rs., 492 F.3d 1164,
1174-77 (noting that the relied-upon evidence was
insufficient because the studies “examine the secondary
effects of sexually oriented businesses located in urban
environments; none examine businesses situated in an
entirely rural area”.).
b. The Plaintiffs’ Expert on “Direct
Doubt” Regarding the Ordinances
The plaintiffs argue that they have successfully
“cast doubt” on the City’s rationale for Chapter 2.3
through their expert evidence. Specifically, the
plaintiffs produce an affidavit, reports, and a study
from their expert witness attacking the methodology
used in evidence relied upon by the City to support the
rationale that sexually oriented businesses are linked
to crime and diminished property values. However,
crime and diminished property values are only two of
several secondary effects the City identifies as a basis
for the enactment of the ordinances. For example, in
the process of adopting the 2007 ordinance, the City
found that the adverse secondary effects of adult
businesses include, but are not limited to, “personal
and property crimes, prostitution, lewdness, public
indecency, unsanitary conditions, potential spread of
disease, obscenity, illicit drug use and drug trafficking,
negative impacts on surrounding properties, blight,
litter, and sexual assault and exploitation.” § 2.3-1(b)(1)
(2007). Even excluding those that may fall into the
categories of “crime” and “property values,” the

App. 40
remaining secondary effects of adult businesses are by
themselves substantial government interests. See
Alameda Books, 535 U.S. at 435-36 (upholding a city’s
ordinance based on evidence of secondary effect (crime)
even though the evidence of another secondary effect
(diminished property values) was inconclusive);
American Mini Theatres, 427 U.S. at 71 (recognizing a
city’s “interest in attempting to preserve the quality of
urban life” is a substantial government interest);
Renton, 475 U.S. at 50 (same); see also Conn. Gen.
Stat. § 7-148(7)(A)(ii) (including in a municipality’s
powers the power to “[r]egulate the mode of using any
buildings when such regulations seem expedient for the
purpose of promoting the safety, health, morals and
general welfare of the inhabitants of the municipality”).
For example, the evidence the City relied on relating to
the spread of disease and prevention of unsanitary
conditions is discussed above. With respect to these
secondary effects, the plaintiffs have failed to produce
any evidence that calls into dispute the City’s factual
findings. The only criticism the plaintiffs’ expert makes
of this evidence is that it is foreign and is not empirical.
This alone is not sufficient to cast direct doubt on the
City’s rationale. Again, the City need not “conduct new
studies or produce evidence independent of that
already generated by other cities to demonstrate the
problem of secondary effects, so long as whatever
evidence the city relies upon is reasonably believed to
be relevant to the problem that the city addresses.” See
City of Erie v. Pap’s A.M., 529 U.S. at 296 (quoting
Renton v. Playtime Theatres, Inc., 475 U.S. at 51-52).
Equally, the Board members may consider “anecdotal
evidence, statistical data, prior cases, or their common
sense.” Abilene Retail, 492 F.3d at 1174 (citing

App. 41
Alameda Books, 535 U.S. at 439-40); see also World
Wide Video of Wash., Inc. v. City of Spokane, 368 F.3d
1186, 1195-96 (9th Cir. 2004) (“Anecdotal evidence and
reported experience can be as telling as statistical data
and can serve as a legitimate basis for finding negative
secondary effects.”); Daytona Grand, Inc. v. City of
Daytona Beach, Fla., 490 F.3d 860, 883 (11th Cir. 2007)
(noting that the City’s “anecdotal” evidence may be a
more accurate assessment of “victimless crimes” crimes in which all of those involved are willing
participants - than empirical data, which often does not
account for such crimes); Imaginary Images, Inc. v.
Evans, 612 F.3d 736, 741 (4th Cir. 2010) (noting the
city “may demonstrate the efficacy of its method of
reducing secondary effects by appeal to common sense,
rather than empirical data.”). Thus, the court concludes
that the plaintiffs have failed to demonstrate that the
City’s evidence does not support its rationale.4 As the
City’s rationale that sexually oriented businesses are
linked to unsanitary conditions or potential spread of
disease is fairly supported by evidence, and as the
plaintiffs have failed to cast direct doubt on this
rationale, either by demonstrating that the City’s
evidence does not support its rationale or by furnishing
evidence that disputes the City’s factual findings, the
court concludes the City has met the standard set forth

4

The plaintiffs also argue that Lipton’s deposition answers are
evidence that the regulations do not further any important or
substantial government interest, under the second prong of the
O’Brien test. However, Lipton’s deposition testimony, which is
discussed below, does not show that the evidence considered by the
City does not support its rationale nor does it constitute evidence
that disputes the City’s factual findings.

App. 42
in Renton, and that the ordinances further the
important or substantial government interest in
maintaining the public health.
3. O’Brien’s Third Element
The third element of the O’Brien test is that the
government’s interest must be unrelated to the
suppression of free expression. The City’s goal of
furthering the important or substantial government
interest in maintaining the public health by addressing
unsanitary conditions and public health risks is
unrelated to the suppression of free expression. Thus,
this element is satisfied.
4. O’Brien’s Fourth Element
Finally, O’Brien requires that the restriction on
protected expression must not be “greater than is
essential to the furtherance of the government
interest.” 391 U.S. at 377. While the Supreme Court
has used slightly different formulations to express this
requirement since O’Brien, it has settled on the
formulation that the regulation may not “burden
substantially more speech than is necessary to further
the government’s legitimate interests.” See Universal
City Studios, Inc. v. Corley, 273 F.3d 429, 450 n.25 (2d
Cir. 2001).
The plaintiffs argue that the ordinances fail this
standard in two ways. First, the plaintiffs argue that a
pasties and g-string requirement is the maximum
restriction on live dance entertainment that can satisfy
O’Brien’s narrow tailoring requirement, and that as a
result, any further regulation of the conduct itself, such
as the buffer zone restriction, see § 2.3-3(7)(B) (2003)

App. 43
and § 2-3-17(b) (2007), and the prohibitions on direct
touching and tipping, see § 2.3-3(7)(C-D) (2003) and
§ 2.3-17(c), is an impermissible restriction on
expressive conduct. Second, the plaintiffs argue that
the economic impact of the buffer zone, “no
touching”/”no tipping”, and the interior configuration
requirements reduce the quantity and accessibility of
protected expression to an impermissible degree.
a. Regulations on Conduct
The plaintiffs’ assertion that the maximum
restriction on live dance entertainment permissible
pursuant to O’Brien’s balancing test is pasties and a gstring is unpersuasive. The plaintiffs rely on Barnes v.
Glen Theatre, Inc. and City of Erie v. Pap’s A.M.. While
in both cases the Supreme Court indicated that a
pasties and g-string limitation is a minimal restriction
on nude dancing, neither case is properly read to
suggest that this limitation is the most intrusive
limitation that may be constitutionally imposed. See
Barnes v. Glen Theatre, Inc., 501 U.S. at 572
(concluding that where the state’s substantial interest
was in protecting order and morality by prohibiting
public nudity, the requirement the dancers “wear at
least pasties and G-strings is modest, and the bare
minimum necessary to achieve the State’s purpose”);
City of Erie v. Pap’s A.M., 529 U.S. at 301 (“The
requirement that dancers wear pasties and G-strings
is a minimal restriction in furtherance of the asserted
government interests, and the restriction leaves ample
capacity to convey the dancer’s erotic message.”)
(emphasis added); see also Richland Bookmart, Inc. v.
Knox County, Tenn., 555 F.3d 512, 529-30 (6th Cir.

App. 44
2009) (noting that neither Barnes and Pap’s A.M. “may
be read to suggest . . . that pasties and g-strings are the
most intrusive requirement that may be
constitutionally imposed”); Sensations, Inc. v. City of
Grand Rapids, 526 F.3d 291, 299 (6th Cir. 2008)
(upholding a prohibition on total nudity, the
requirement that semi-nude performers maintain a sixfoot distance from patrons on a stage at least eighteen
inches from the floor and a no-touching rule between
performers and audience members and holding that
without further support, the argument that “the sum
of the Ordinance’s parts placed such a significant
burden on speech as to violate the First Amendment,
even though each individual provision is
constitutional... is unavailing.”).5
b. Economic Impact
The plaintiffs argue that the buffer zone, “no
touching”/”no tipping”, and interior configuration
requirements will impermissibly reduce the quantity
and accessibility of protected expression.
The plaintiffs assert that the City has the burden of
demonstrating that the ordinances can appropriately
ameliorate identified secondary effects “without
impairing the quantity and accessibility of speech.”
(Pls.’ Resp. Def.’s Mot. Summ. J. 42.) However, O’Brien
and its progeny do not require the City to carry that
burden, and the plaintiffs’ reliance on Justice
5

The court has considered G.M. Enterprises, Inc. v. Town of St.
Joseph, 350 F.3d 631 (7th Cir. 2003) and R.V.S. v. City of Rockford,
361 F.3d 402 (7th Cir. 2004), which were cited by the plaintiffs,
and concludes that they are not on point.

App. 45
Kennedy’s concurrence in Alameda Books for support
for this proposition is unpersuasive.
[A] narrowly tailored time, place, or manner
regulation need not be the least intrusive means
to achieve the government’s interest. The
requirement of narrow tailoring is satisfied so
long as the regulation promotes a substantial
government interest that would be achieved less
effectively absent the regulation, although the
government may not regulate expression in such
a manner that a substantial portion of the
burden on speech does not serve to advance its
goals.
Centerfolds, Inc. v. Town of Berlin, 352 F. Supp. 2d
183, 191 (D. Conn. 2004) (citing Ward, 491 U.S. at 299).
Furthermore, the court does not agree with the
plaintiffs that Justice Kennedy’s concurrence in
Alameda Books “truly operationalizes” the fourth prong
of O’Brien. (Pls.’ Resp. Def.’s Mot. Summ. J. 44.)
Rather, Justice Kennedy was elaborating on Renton,
not O’Brien. See 535 U.S. 425, 444-45. It is within the
context of identifying “the claim a city must make in
order to justify a content-based zoning ordinance” that
Justice Kennedy stated that “[t]he rationale for the
ordinance must be that it will suppress secondary
effects—and not by suppressing speech.” Id. at 449-50.
The concurrence stops short of referring to, let alone
“operationalizing,” the standard that is to be applied
with respect to O’Brien’s fourth element.
The plaintiffs also argue that the effect on protected
speech of the ordinances is “catastrophic” not only
because the ordinance will require Keepers and After

App. 46
Dark to incur renovation costs, but also because the
2007 ordinance will make the businesses less profitable
by limiting the amount of entertainment available.
(Pls.’ Resp. Def.’s Mot. Summ. J. 44.) In support of this
argument, the plaintiffs produce diagrams of the two
businesses with accompanying affidavits detailing the
impossibility of compliance with the ordinance given
the businesses’ current layouts. However, this evidence
falls short of a showing that the ordinance “burden[s]
substantially more speech than is necessary to further
the government’s legitimate interests.” See Universal
City Studios, Inc. v. Corley, 273 F.3d 429, 450 n.25 (2d
Cir. 2001). The plaintiffs have merely shown that the
interior of their establishments as configured currently
are not amenable to compliance with the ordinance. It
is not the case that the City, in order to craft a
narrowly tailored ordinance, must take into account
the interior configurations of all of the then-existing
adult businesses prospectively subject to its
regulations. Finally, the plaintiffs’ argument that
economic impact must be considered in First
Amendment analysis is addressed, and rejected, in
Section III.G.4.a, infra.
The court finds that both the 2003 ordinance and
the 2007 ordinance satisfy all four elements established
in O’Brien. Therefore, the ordinances are valid
restrictions on speech, and the plaintiffs’ motion for
summary judgment on their First Amendment claim
based on undue burden on protected expression is
being denied and the defendant’s motion for summary
judgment on the First Amendment claim based on
undue burden on protected expression is being granted.

App. 47
C. Fourteenth Amendment – Vagueness
The plaintiffs claim that the 2003 and 2007
ordinances are unconstitutionally vague in violation of
the Due Process Clause of the Fourteenth Amendment.
The defendant contends that the plaintiffs lack
standing to bring such a claim, that the ordinances’
scienter requirements defeat any vagueness claim, and
that, in any event, the ordinances are not vague.
“As one of the most fundamental protections of the
Due Process Clause, the void-for-vagueness doctrine
requires that laws be crafted with sufficient clarity to
give the person of ordinary intelligence a reasonable
opportunity to know what is prohibited and to provide
explicit standards for those who apply them.” VIP of
Berlin, LLC v. Town of Berlin, 593 F.3d 179, 186 (2d
Cir. 2010). “A statute can be impermissibly vague for
either of two independent reasons. First, if it fails to
provide people of ordinary intelligence a reasonable
opportunity to understand what conduct it prohibits.
Second, if it authorizes or even encourages arbitrary
and discriminatory enforcement.” Id. at 186-87 (quoting
Hill v. Colorado, 530 U.S. 703, 732 (2000)). As the
Supreme Court has explained:
First, because we assume that man is free to
steer between lawful and unlawful conduct, we
insist that laws give the person of ordinary
intelligence a reasonable opportunity to know
what is prohibited so that he may act
accordingly. Vague laws may trap the innocent
by not providing fair warning. Second, if
arbitrary and discriminatory enforcement is to

App. 48
be prevented, laws must provide explicit
standards for those who apply them.
Grayned v. City of Rockford, 408 U.S. 104, 108 (1972).
“In reviewing an ordinance’s language for
vagueness, ‘we are relegated . . . to the words of the
ordinance itself, to the interpretations the court below
has given to analogous statutes, and perhaps to some
degree, to the interpretation of the statute given by
those charged with enforcing it.’” VIP of Berlin, 593
F.3d at 187 (quoting Grayned, 408 U.S. at 110).
However, “although the [official charged with enforcing
the ordinance’s] understanding of the ordinance’s terms
is relevant ‘perhaps to some degree,’ our inquiry begins
with the text of the ordinance.” Id. (internal citation
omitted). An ordinance may be challenged on the
ground that it is impermissibly vague “as applied” to
the plaintiffs and/or on the ground that it is
impermissibly vague “on its face.”6
1. As-Applied Vagueness Claim
In their Reply in Support of Plaintiffs’ Motion for
Partial Summary Judgment (Doc. No. 86), the plaintiffs
dispute that they are mounting solely a facial challenge
to § 2.3 and assert that they also challenge the
6

The court usually considers “as applied” challenges first:
“Because the permissibility of a facial challenge sometimes
depends upon whether the challenged regulation was
constitutional as applied to the plaintiff, ‘[a] court should ...
examine the complainant’s conduct before analyzing other
hypothetical applications of the law.’” Farrell v. Burke, 449 F.3d
470, 485 (2d Cir. 2006) (quoting Vill. of Hoffman Estates v.
Flipside, Hoffman Estates, 455 U.S. 489, 495, (1982)).

App. 49
ordinances as applied to them.7 The defendant has not
responded to this contention as the plaintiffs make this
claim for the first time in their reply brief. In any
event, the court finds that the plaintiffs lack standing
to bring an as-applied challenge.
It is well-established that “[o]ne to whose conduct a
statute clearly applies may not successfully challenge
it for vagueness.” Parker v. Levy, 417 U.S. 733, 756
(1974). While Parker v. Levy was decided in the
criminal law context, this principle equally applies to
regulations affecting adult-oriented businesses. See
Young v. American Mini Theaters, Inv., 427 U.S. 50,
58-59 (1976) (“For even if there may be some
uncertainty about the effect of the ordinances on other
litigants, they are unquestionably applicable to these
respondents . . . . To the extent that their challenge is
predicated on inadequate notice resulting in a denial of
procedural due process under the Fourteenth
Amendment, it must be rejected.”); Gold Diggers, LLC
v. Town of Berlin, Conn, 469 F. Supp. 2d 43, 54 (D.
Conn. 2007) (finding no standing and noting that “it

7

The plaintiffs claim that the statute has been “applied” to them
because they have been subjected to licensing fees under the 2003
ordinance and that, although neither the 2003 or 2007 ordinances
have been enforced, the City has determined that the plaintiffs
operate an “adult-oriented business” within the definition of the
ordinances. The plaintiffs further contend that their proposed
future conduct (which is not specified) make them eligible to
challenge the conduct as applied. The court notes, however, that
the sole relief the plaintiffs have requested in their briefing on the
issue of vagueness is that the statute be invalidated in its entirety
because its defects are non-severable: a remedy exclusive to facial
challenges.

App. 50
appears that plaintiffs intend to operate [adult-oriented
businesses] and that the ordinance unquestionably
applies to them”).
The plaintiffs state that they are a “cabaret-style
nightclub” that “features live, non-obscene, clothed and
seminude (“topless”) performance dance entertainment
presented to the consenting adult public.” (Compl.
¶ 12). They intend to operate and continue to operate
a business such that the ordinance is “unquestionably
applicable” to them and that “any element of
vagueness” as to the terms defining businesses to be
regulated “has not affected [the plaintiffs].” See Gold
Diggers, 469 F. Supp. 2d at 54. Thus, the plaintiffs
cannot establish standing to bring an “as applied” due
process vagueness claim.
A statute may also be vague as-applied if it
“authorizes or even encourages arbitrary and
discriminatory enforcement.” VIP of Berlin, 593 F.3d at
186. The plaintiffs have made no claim that the
ordinance has been or will be arbitrarily or
discriminatorily enforced against Keepers.8 See United
States v. Lambert, 446 F. Supp. 890, 896 (D. Conn.
8

While the plaintiffs argue that Lipton’s deposition testimony
establishes that the enforcement provisions of the statute are
vague, they base this argument on Lipton’s answers to
hypothetical situations with which she was presented; her
deposition testimony is discussed below. But in an as-applied
challenge, “a court’s analysis should be confined to the litigant’s
actual conduct, and a court should not analyze whether a
reasonable person would understand that certain hypothetical
conduct or situations violate the statute.” VIP of Berlin, LLC v.
Town of Berlin, 593 F.3d 179, 189 (2d Cir. 2010) (emphasis in
original) (citing Perez v. Hoblock, 368 F.3d 166, 175 (2d Cir. 2004)).

App. 51
1978) (rejecting plaintiff’s as-applied vagueness
challenge because “the present case is not an example
of the government’s unfettered discretion”). The
plaintiffs’ as-applied challenge thus fails.
2. Facial Vagueness Claims
“Federal courts as a general rule allow litigants to
assert only their own legal rights and interests, and not
the legal rights and interests of third parties.” Farrell
v. Burke, 449 F.3d 470, 494 (2d Cir. 2006); see also
Broadrick v. Oklahoma, 413 U.S. 600, 610 (1973
(“Embedded in the traditional rules governing
constitutional adjudication is the principle that a
person to whom a statute may constitutionally be
applied will not be heard to challenge that statute on
the ground that it may conceivably be applied
unconstitutionally to others.”). However, “the
limitations on third-party standing that restrict such
challenges are prudential, not jurisdictional.”
Dickerson v. Napolitano, 604 F.3d 732, 742 (2d Cir.
2010). Courts have recognized exceptions to this
requirement. One such exception “has been carved out
in the area of the First Amendment.” Id. at 611. See
also Members of City Council of Los Angeles v.
Taxpayers for Vincent, 466 U.S 787, 798-99 (1984)
(recognizing the overbreadth doctrine in First
Amendment jurisprudence as an exception from “the
general rule that constitutional adjudication requires
a review of the application of a statute to the conduct
of the party before the Court”); Lambert, 466 F. Supp.
at 896 (same). Thus, “[t]he general rule disfavoring
facial vagueness challenges does not apply in the First
Amendment context.” Farrell, 449 F.3d at 496.

App. 52
This limited exception reflects the “weighty
countervailing policies” behind protecting First
Amendment rights. Broadrick, 413 U.S. at 611 (citing
United States v. Raines, 362 U.S. 17, 22-23 (1960)). As
explained in Young v. American Mini Theaters, Inc.,
a defendant whose own speech [is] unprotected
[has] standing to challenge the constitutionality
of a statute which purported to prohibit
protected speech, or even speech arguably
protected. This exception from traditional rules
of standing to raise constitutional issues has
reflected the Court’s judgment that the very
existence of some statutes may cause persons
not before the Court to refrain from engaging in
constitutionally protected speech or expression.
427 U.S. 50, 59-60 (1976) (citing Broadrick, 413 U.S. at
611-614). The danger that statutes may infringe upon
the fundamental speech rights of persons not before the
court has led First Amendment jurisprudence to
recognize a different approach where the statute
at issue purports to regulate or proscribe rights
of speech or press protected by the First
Amendment. Although a statute may be neither
vague, overbroad, or otherwise invalid as applied
to the conduct charged against a particular
defendant, he is permitted to raise its vagueness
or unconstitutional overbreadth as applied to
others. And if the law is found deficient in one of
these respects, it may not be applied to him
either, until and unless a satisfactory limiting
construction is placed on the statute.

App. 53
Coates v. City of Cincinnati, 402 U.S. 611, 619-20
(1971) (internal citations omitted); see also United
States v. Williams, 553 U.S. 285, 304-06 (2008)
(“Although ordinarily [a] plaintiff who engages in some
conduct that is clearly proscribed cannot complain of
the vagueness of the law as applied to the conduct of
others, we have relaxed that requirement in the First
Amendment context, permitting plaintiffs to argue that
a statute is overbroad because it is unclear whether it
regulates a substantial amount of protected speech”
(internal quotation marks omitted).) Thus, “[a]
defendant whose conduct is at the ‘core’ of the activities
clearly covered by the statute’s terms may only raise a
vagueness defense if the statute is one that is likely to
chill the exercise of constitutionally protected conduct.”
United States v. Loy, 237 F.3d 251, 259 (2d Cir. 2001);
see also Young, 427 U.S. at 60 (“[I]f a statute’s
deterrent effect on legitimate expression is both real
and substantial, and if the statute is readily subject to
a narrowing construction by the state courts, the
litigant is not permitted to assert the rights of third
parties.”) (internal quotation marks and citations
omitted).9 Here, the plaintiffs may assert a facial
9

It remains somewhat unsettled whether the requirements that
the ordinance have a “real and substantial” deterrent effect on
speech and not be “readily subject to a limiting interpretation” is
truly a threshold “standing requirement” or is more readily
understood as the requirement to mount a successful claim of
facial vagueness. As the court in Lambert observed:
In Young, the Supreme Court referred to these criteria as
a test of standing. But the test does not prevent a party
from raising the First Amendment claims and it does not
relieve a court from considering them. However, once the
claims of third parties have been raised, the test places a

App. 54
vagueness challenge to the ordinances.
To be constitutional, a law must “give the person of
ordinary intelligence a reasonable opportunity to know
what is prohibited so that he may act accordingly.”
Grayned, 408 U.S. at 108. “Vagueness in the law is
particularly troubling when First Amendment rights
are involved”, and as a result, “[w]here a statute’s
literal scope, unaided by a narrowing state court

heavy burden on the party seeking invalidation of the
statute to show that the statute deserves to be declared
void on its face. The test thus concerns the requirement for
successfully asserting the right of third parties. Otherwise
the distinction between standing and success on the merits
would be lost.
446 F. Supp. at 897 n.8 (emphasis in original; internal citations
omitted).
This analysis is bolstered by the fact that Young cites
Erznoznik v. City of Jacksonville, 422 U.S. 205 (1975) for the “real
and substantial” and “limiting interpretation” requirements for
“standing”. See id. at 216. Erznoznik states, “a state statute should
not be deemed facially invalid unless it is not readily subject to a
narrowing construction by the state courts, and its deterrent effect
on legitimate expression is both real and substantial.” Id. (internal
citations omitted). Thus, Erznoznik’s standard is a standard
governing whether courts should declare a statute facially invalid,
i.e., a standard governing analysis on the merits, not a standard
regarding standing. See also Gold Diggers, 469 F. Supp. 2d at 54
(“Plaintiffs’ vagueness challenge may also be construed as
asserting overbreadth or that the ordinance’s flawed language
compromises First Amendment protected speech of third parties
not before the court. On such a challenge the Court must consider
whether such effect is both real and substantial and whether the
Ordinance is not readily susceptible to a limiting construction.
Thus, the Court must look to the merits of plaintiffs’ arguments to
determine the Ordinance’s deterrent effect on the protected speech
of third parties.”) (internal citations omitted).

App. 55
interpretation, is capable of reaching expression
sheltered by the First Amendment, the doctrine
demands a greater degree of specificity than in other
contexts.” Farrell, 449 F.3d at 485 (quoting Smith v.
Goguen, 415 U.S. 566, 573 (1974)). However, as Court
observed in Young, that requirement of a greater
degree of specificity required for statutes which
infringe on First Amendment rights is relaxed
somewhat in the context of adult entertainment. See
427 U.S. at 61. In rejecting a vagueness challenge for
a zoning ordinance affecting sexually-oriented
businesses, the Court stated:
[t]he fact that the First Amendment protects
some, though not necessarily all, of
[pornographic material] from total suppression
does not warrant the further conclusion that an
exhibitor’s doubts as to whether a borderline
film may be shown in his theater . . . involves
the kind of threat to the free market in ideas
and expression that justifies the exceptional
approach to constitutional adjudication
recognized in [other First Amendment cases].
Id.
a. 2003 Ordinance
Keepers challenges the 2003 ordinance contending
that the terms “adult cabaret” and “any commercial
establishment that regularly features adult
entertainment” are unconstitutionally vague. The
plaintiffs also assert that the challenge to the use of the
term “regularly features” applies with equal force to
the 2007 ordinance. The plaintiffs argue that the terms

App. 56
are impermissibly vague because (a) “they define for
regulation that which is also prohibited by the
ordinance,” and (b) the terms are defined using the
words “regularly features,” which “contains no specific
standards.” (Pls.’ Mem. Supp. Mot. Summ. J. 6, 8.)
Finally, the plaintiffs argue that the licensing scheme
which governs Chapter 2.3 is unconstitutionally vague.
i. “They Define for Regulation That
Which Is also Prohibited by the
Ordinance”
Keepers argues that the type of entertainment
regulated by the 2003 ordinance is later banned by the
ordinance pursuant to the ordinance’s definition of
“nudity or a state of nudity”. Keepers contends that
this contradiction renders the ordinance impermissibly
vague. However, the court concludes, for substantially
the reasons set forth in the defendant’s brief, that
Keepers has misread the ordinance and that no such
conflict exists. (See Def.’s Resp. Pls.’ Mot. Summ. J. 68.) The ordinance defines the establishments it seeks to
regulate (adult cabarets and commercial
establishments that regularly feature adult
entertainment) as establishments regularly featuring
conduct “characterized by an emphasis on any specified
anatomical areas”, and then prohibits conduct relating
to a subset of “specified anatomical areas”. See § 2.3-

App. 57
2(4)10; § 2.3-211; § 2.3-2(18)12; § 2.3-2(13)13 (2003). Thus,
“specified anatomical areas” that are not prohibited
include the “less than completely and opaquely
covered... ii. buttocks” and “iii. female breasts below a
point immediately above the top of the areola”
excluding the areola and nipple. Thus, dancers can
wear clothing that exposes these “specified anatomical
areas” - e.g. pasties and a g-string.
ii. “Regularly Features”
The plaintiffs argue that the terms “adult cabaret”
and “any commercial establishment that regularly
features adult entertainment” are impermissibly vague

10

“Adult Cabaret means... [an] establishment which regularly
features live conduct characterized by an emphasis on any
specified anatomical areas, as defined herein.”
11

“Any commercial establishment that regularly features adult
entertainment” means, pursuant to the definition of “adult
entertainment” in chapter 2.3-2, any commercial establishment
that regularly features “exhibition of motion pictures, displays, or
live performances which are characterized by an emphasis on...
‘specified anatomical areas’ as defined herein.”
12

“Specified anatomical areas” means “(A) Less than completely
and opaquely covered: i. human genitals, pubic region; ii. buttocks;
iii. female breasts below a point immediately above the top of the
areola; and (B) Human male genitals in a discernibly turgid state,
even if completely opaquely covered.”
13

“Nudity or a State of Nudity” is defined as “the showing of the
human male or female genitals, pubic area, vulva, anus, anal cleft
or cleavage with less than a fully opaque covering, or the showing
of the female breast with less than a fully opaque covering of any
part of the nipple or areola.”

App. 58
because a component of the terms, “regularly features”
lacks standards critical to determining whether an
establishment operates as an adult-oriented business
per the ordinances.
Where ‘the only vagueness in the ordinances
relates to the amount of sexually explicit activity
that may be portrayed before the material can
be said to’ fall within the scope of the
ordinances, the Supreme Court has expressed
skepticism about whether such ordinances have
a ‘significant deterrent effect on . . . First
Amendment’ rights.
VIP of Berlin, LLC v. Town of Berlin, 593 F.3d 179, 186
n.5 (2d Cir. 2010) (quoting Young v. Am. Mini
Theatres, Inc., 427 U.S. 50, 60–61 (1976) (rejecting a
facial vagueness challenge to a zoning ordinance’s
regulation of adult theaters)).14
Section 2.3-2(4) defines “regularly features” as “a
consistent course of conduct, such that the films or
performances exhibited constitute a substantial portion

14

The court in VIP of Berlin went on to note that:
[B]ecause the only vagueness challenge here relates to the
ordinance’s definition of how much ‘adult’ merchandise
makes a store ‘adult oriented,’ the degree of vagueness
tolerated in this situation, although slightly unclear from
existing case law, may be somewhat greater than if the
ordinance regulated other types of more protected speech.
Nevertheless, even if the expression at issue here were
entitled to full First Amendment protection, the present
ordinance’s language is sufficiently specific to withstand
VIP’s as-applied vagueness challenge.
VIP of Berlin, 593 F.3d at 186 n.5.

App. 59
of the films or performances offered as a part of the ongoing business of the sexually oriented business.” § 2.32(4) (2003).15
To the extent that “regularly features” relies on the
term “substantial portion,” the court concludes that the
term “substantial portion” is not vague. See VIP of
Berlin, 593 F.3d at 188, 190 n.9 (noting that the
legislature has used the phrase “substantial portion” to
organize our society in a wide variety of contexts); see
also Gold Diggers, 459 F. Supp. 2d at 61 (“The Court
need not further belabor the analysis as to the
vagueness of ‘substantial portion,’ but joins the chorus
of precedent holding that this language provides the
necessary guidance to enable individuals of ordinary
intelligence to understand which businesses fall within
the regulation’s rubric.”); Ill. One News, Inc. v. City of
Marshall, 477 F.3d 461, 465 (7th Cir. 2007) (finding
that the definition of “adult bookstore” as “[a]n
establishment having a substantial or significant
portion of its stock in trade” in adult merchandise was
not facially vague and noting that “[i]t is all but
impossible to write a law or regulation without some
qualitative words such as ‘substantial’”); Doctor John’s,
Inc. v. City of Roy, 465 F.3d 1150, 1157, 1160 (10th Cir.
2006) (noting that to prevail on a facial vagueness
challenge, a party “must show, at a minimum, that the
challenged law would be vague in the vast majority of
its applications” and that the phrase “‘significant or

15

For purposes of the definition of “adult bookstore, adult novelty
store, or adult video store”, the term “significant or substantial
portion” means “thirty (30%) percent or more of the term modified
by such phrase.” § 2.3-2(3).

App. 60
substantial’ portion of its wares devoted to adult
material survives Dr. John’s facial vagueness
challenge”); ILQ Invs., Inc. v. City of Rochester, 25 F.3d
1413, 1419 (8th Cir. 1994); 511 Detroit St., Inc. v.
Kelley, 807 F.2d 1293, 1295-97 (6th Cir. 1986); Mom N
Pops, Inc. v. City of Charlotte, 979 F. Supp. 372, 393-94
(W.D.N.C. 1997); 15192 Thirteen Mile Rd., Inc., v. City
of Warren, 626 F. Supp. 803, 819-21 (E.D. Mich. 1985);
City of Chi. v. Scandia Books, Inc., 430 N.E.2d 14, 18
(Ill. App. Ct. 1981) (“The word ‘substantial’ as used in
the definition of adult bookstores is not so indefinite as
to render the ordinance void and unenforceable.”);
Dandy Co., v. Civil City of South Bend, County-City
Complex, 401 N.E.2d 1380, 1386 (Ind. Ct. App.1980)
(“The definition[s] of [substantial or significant] must
necessarily be determined on a case-by-case basis and
are therefore not capable of precise mathematical
calculation.”).
iii.

Ambiguity in Licensing

Keepers attacks the licensing scheme laid out in the
2003 ordinance as ambiguous and therefore
unconstitutionally vague. Keepers argues that the 2003
ordinance requires an “operator” of an adult-oriented
establishment, defined as: “any person, or any
proprietor, shareholder, general partner or limited
partner who participates in the management or day-today operations and/or control of the establishment”, to
apply for a license under the ordinance. In turn, the
term “applicant” includes “operators, as defined in 2.32(14) and any other persons directly involved in the
management or control of the adult-oriented
establishment.” (Pls.’ Mem. Supp. Mot. Summ. J. 10.)

App. 61
Finally, Keepers challenges as vague the ordinance’s
definition of the applicants who must file when the
adult-oriented establishment is an “enterprise,” as the
ordinance requires the applicant to provide background
information as to several enumerated parties as well as
“all other persons with authority to participate directly
and regularly in management and/or operation of the
business.” (Id.) Keepers claims that these definitions
are conflicting, but it does not explain how or why they
are. At worst, the definitions of “operator,” which
includes “any person . . . who participates in the
management . . . and/or control of the establishment,”
and “applicant” which includes both “operators” and
“any other persons . . . involved in the management or
control of the . . . establishment” are redundant, not
conflicting. Thus, the court finds that these terms are
not vague.
Keepers also contends that the term “enterprise” is
vague. The plaintiff argues: “if the applicant is an
‘enterprise’ (whatever that may mean—the term is not
defined anywhere in the Ordinance), it shall designate
an officer or partner as an ‘applicant.’” (Id.) Webster’s
Dictionary defines “enterprise” as “a unit of economic
organization or activity; esp: a business organization.”
Webster’s New Collegiate Dictionary (1981). Nor does
the plaintiff suggest that “enterprise” is used in such a
way as to suggest a meaning different from this
generally understood definition. Thus, the court finds
the term “enterprise” is not vague.
The alleged vagueness in the 2003 ordinance is
unlikely to chill constitutionally protected conduct as it
gives sufficient notice as to what is prohibited. Thus,

App. 62
the 2003 ordinance is not unconstitutionally vague, and
the foregoing analysis applies to the comparable
sections of the 2007 ordinance as to which the plaintiffs
advance the same arguments.
b. The 2007 Ordinance
The plaintiffs produce the deposition testimony of
Marilyn Lipton, former attorney for the City of Milford,
to support an argument that the ordinance not only
includes additional vague terms, but also does not give
sufficient guidance as to how it is to be enforced. In
response, the defendant submits an affidavit and
memorandum by Chief of Police Keith Mello to
supplement Lipton’s deposition testimony. The court
considers both in assessing whether the 2007 ordinance
is impermissibly vague.16
16

Mello’s Memorandum and Affidavit was the subject of a motion
to strike by the plaintiffs, who claimed that “[t]he Affidavit and
Memorandum are improper under Rule 56(e) and otherwise
because they conflict with the previous binding testimony of
(former) city attorney Marilyn Lipton on behalf of the city
regarding the interpretation and enforcement of Chapter 2.3.”
(Pls.’ Mot. Strike ¶ 2 (Doc. No. 71).) The defendant responded that
the plaintiffs never disclosed to either them or Lipton which
sections of the ordinance were allegedly vague, leaving Lipton
unable to properly prepare for the plaintiffs’ questions at her
deposition, and that Lipton’s responses of “I don’t know” to certain
hypothetical questions offered by the plaintiff were not
contradicted by Mello’s memorandum, only supplemented by it.
(See Def.’s Mem. Opp. Pls.’ Mot. Strike 4 (Doc. No. 75).) In the
Order Re Plaintiff’s Motion to Strike Affidavit, Etc., the court
denied the motion to strike, noting that neither party, either in the
complaint or during the discovery process, endeavored to identify
which portions of the ordinance were allegedly vague. The court
concluded that now, after both the plaintiffs’ and defendant’s

App. 63
i. Whether the 2007 Ordinance
Provides Adequate Standards to
Guide Law Enforcement
“The more important part of the vagueness doctrine
is not actual notice, but the other principal element of
the doctrine—the requirement that a legislature
establish minimal guidelines to govern law
enforcement.” Kolender v. Lawson, 461 U.S. 352, 358
(1983). “A vague law impermissibly delegates basic
policy matters to policemen, judges, and juries for
resolution on an ad hoc and subjective basis, with the
attendant dangers of arbitrary and discriminatory
application.” Grayned, 408 U.S. at 108. A statute is
unconstitutionally vague “if it authorizes or even
encourages arbitrary and discriminatory enforcement.”
VIP of Berlin, 593 F.3d at 186. It is a “well-established
principle that statutes will be interpreted to avoid
constitutional difficulties.” Frisby v. Schultz, 487 U.S.
474, 483 (1988) (citing Erznoznick, 422 U.S. at 216;
Broadrick, 413 U.S. at 613).
The plaintiffs rely on Lipton’s responses to various
questions posed to her at a 30(b)(6) deposition in
support of their argument that the 2007 ordinance fails
to provide law enforcement officials with “explicit
standards” for enforcement. Grayned, 408 U.S. at 108.
Specifically, they point to 33 instances in Lipton’s
deposition where she was unable to provide definitive
submissions, “there are specific contentions as to the ordinance
being vague, and those specific contentions have been responded
to. . . . Therefore, the court will consider the defendant’s
submission, keeping in mind the circumstances under which it
came to be prepared.” (Order Re Pls.’ Mot. Strike 1 (Doc. No. 79).)

App. 64
answers to the plaintiffs’ questions about how the
ordinance was to be applied in certain scenarios. The
plaintiffs rely heavily on VIP of Berlin, LLC v. Town of
Berlin, where the court held that a zoning ordinance
regulating adult-oriented bookstores was
unconstitutionally vague in its use of the term
“substantial or significant portion.” 664 F. Supp. 2d 151
(D. Conn. 2009). A key aspect of the court’s analysis in
VIP of Berlin was its determination that the officers
who testified at the motion hearing gave inconsistent
definitions of the term, amounting to what the court
termed an “I know it when I see it” enforcement
standard. Id. at 165. The plaintiff argues that this
ruling, and the case it “drew heavily” from, City of
Knoxville v. Entertainment Resources, LLC, 166
S.W.3d 650 (Tenn. 2005), is instructive because Lipton
was similarly unable give a consistent definition of the
terms in the ordinance. (See Pls.’ mem. Supp. Mot.
Summ. J. 20.)
On appeal, however, the Second Circuit noted that
“[a] fundamental canon of statutory construction is
that, unless otherwise defined, words will be
interpreted as taking their ordinary, contemporary,
common meaning.” VIP of Berlin, 593 F.3d at 187. The
Second Circuit used common dictionary definitions to
conclude that the terms “substantial” and “significant”
were not vague in the context of the zoning ordinance.
While the court acknowledged that “[i]n addition to a
statute’s plain meaning and stated purpose, courts
should determine whether a statute provides
sufficiently clear enforcement standards by analyzing
‘perhaps to some degree . . . the interpretation of the
statute given by those charged with enforcing it,’” id. at

App. 65
187 (citing Grayned, 408 U.S. at 110), it ultimately
found that the testimony given was consistent with the
zoning ordinance’s stated purpose and plain meaning.
See id. In Grayned, in the absence of a state judicial
interpretation of a questioned ordinance, the Court
recognized that it was “relegated to the words of the
ordinance itself, to the interpretations the court below
has given to analogous statutes, and, perhaps to some
degree, to the interpretation of the statute given by
those charged with enforcing it.” 408 U.S. at 110.
The court finds that the ordinance here is clear on
its face, as Grayned requires. The court also finds that
“the interpretation of the statute given by those
charged with enforcing it,” 408 U.S. at 110, is
consistent with the plain meaning of the ordinance
itself.
Lipton’s 30(b)(6) testimony on behalf of the City is
offered by the plaintiffs not to show the City’s official
position on the ordinance, but instead to suggest a lack
thereof. The plaintiffs argue that Lipton “had little to
no understanding as to how the words, phrases, and
provisions contained within the ordinance are to be
applied and/or enforced, and further testified that no
policies whatsoever have been adopted by Milford.”
(See Pls.’ Mem. Supp. Mot. Summ. J. 11.) The plaintiffs
take issue with the circumstances under which the
Mello Affidavit and Memorandum (submitted with the
defendant’s response) was prepared, voicing concern
that it was prepared on the eve of the defendant’s
deadline for responding to their summary judgment
motion. They note that “Courts have been skeptical of
directives issued by government officials after the

App. 66
commencement of litigation in an apparent attempt to
demonstrate a ‘well established’ practice.” Bella Vista
United v. City of Philadelphia, Civ. No. A. 04-1014,
2004 WL 825311 at *5 (E.D. Pa. April 15, 2004).
However, the Mello Affidavit and Memorandum
makes no such attempt. Rather than interpreting the
ordinance’s terms and procedures, Mello identifies the
sections of the ordinance which clearly govern these
issues; little to no policy or textual interpretation is
provided. Insofar as the Mello Affidavit and
Memorandum interprets the ordinance in order to
respond to the plaintiffs’ questions, these
interpretations are (a) based on a “plain meaning”
understanding of the terms of the ordinance,17 or
(b) consistent with the ordinance’s stated purpose.18
It would be unfair to ignore this document in favor
of a deposition in which the plaintiffs succeeded in
surprising a deponent not charged with enforcement of
the ordinace with hypotheticals that served to “stump”
her. While “there is little doubt that imagination can
conjure up hypothetical cases in which the meaning of
these terms will be in nice question,” American
Communications Assn. v. Douds, 339 U.S. 382, 412
(1950), “speculation about possible vagueness in
hypothetical situations not before the [c]ourt will not
support a facial attack on a statute when it is surely
valid in the vast majority of its intended applications.”

17

(See Mello Mem. ¶¶ 1, 5, 14, 18, 22, 23.)

18

(See Mello Mem. ¶¶ 13, 16, 20, 21.)

App. 67
Hill v. Colorado, 530 U.S. 703, 733 (2000) (citing
United States v. Raines, 362 U.S. 17, 23 (1960)).
ii. Scienter Requirement
The defendant argues that the scienter element in
the ordinance “will prevent a finding of
unconstitutionality.” (Def.’s Mem. Supp. Mot. Summ. J.
62 (citing Boyce Motor Lines, Inc. v. United States, 342
U.S. 337, 324 (1952).)
The Supreme Court “has recognized that a scienter
requirement may mitigate a law’s vagueness, especially
with respect to the adequacy of notice to the
complainant that conduct is proscribed.” Hoffman
Estates, 455 U.S. at 499. However, the presence of a
scienter requirement is not dispositive. In Hill v.
Colorado, the Supreme Court considered a statute
aimed at preventing protestors at abortion clinics from
engaging in “sidewalk counseling.” 530 U.S. 703 (2000).
The statute made it unlawful for a person to, within
100 feet of the entrance to a health care facility,
“knowingly approach” entrants to the facility for the
purpose of passing out leaflets, giving counseling,
orally protesting, or engaging in various other similar
activities. Id. at 707. With respect to the requirement
that one must “knowingly approach” another person,
the court rejected a vagueness challenge, noting that
“the likelihood that anyone would not understand any
of those common words seems quite remote.” Id. at 732.
However, as to another aspect of the statute, the eightfoot no-approach zone, the Court found that a “citizen
may walk from a disfavored-speech zone to a free zone
with little or no ability to discern when one ends and

App. 68
the other begins. . . . Scienter cannot save so vague a
statute as this.” Id. at 774.
Here, the ordinance provides: “It is unlawful for a
sexually oriented business operator to knowingly
violate the following regulations or to knowingly allow
an employee or any other person to violate the
following regulations.” § 2.3-17 (2007). The regulations
that follow prohibit anyone on the premises from
appearing in a state of nudity, semi-nude performers
from violating the six-foot buffer requirement,
performers from touching patrons, and minors from
entering the premises. The court finds that the plain
meaning of these provisions is clear, and insofar as
there remains any danger of notice to potential
violators, it is mitigated by the scienter requirement.
The likelihood that anyone subject to these provisions
would not understand these terms seems remote. To
the extent that the six-foot buffer zone resembles the
eight-foot buffer zone at issue in Hill, the buffer zone in
the present ordinance is not only fixed, but elevated,
and the requirement applies only to performers. See
§ 2.3-17(b) (2007).
Thus, the court concludes that the 2007 ordinance
is not unconstitutionally vague on its face. It does not
authorize or encourage arbitrary or discriminatory
enforcement, and insofar as there could be a danger of
notice to potential violators, it is mitigated by a
scienter requirement.
Therefore, the plaintiffs’ as-applied and facial
challenges to the ordinances for vagueness both fail.
The plaintiffs’ motion for summary judgment on their
Fourteenth Amendment vagueness claim is being

App. 69
denied, and the defendant’s motion for summary
judgment on that claim is being granted.
D. First Amendment - Overbreadth
The Second Circuit has observed that
[o]verbreadth challenges are a form of First
Amendment challenge and an exception to the
general rule against third-party standing. A
party alleging overbreadth claims that although
a statute did not violate his or her First
Amendment rights, it would violate the First
Amendment rights of hypothetical third parties
if applied to them. All overbreadth challenges
are facial challenges, because an overbreadth
challenge by its nature assumes that the
measure is constitutional as applied to the party
before the court.
Farrell, 449 F.3d at 499. “A plaintiff claiming
overbreadth need not show that the challenged
regulation injured his or her First Amendment
interests in any way in order to bring the overbreadth
challenge” but the plaintiff must satisfy the Article III
requirement of “injury-in-fact” and is “expected
satisfactorily to frame the issues in the case.” Id.
“[T]he analysis of the merits of an overbreadth
challenge is essentially the same as the analysis
discussed above in the facial vagueness context.” Id.
Here, while the plaintiffs do not specifically bring an
overbreadth challenge, the court interprets their
vagueness claim as encompassing both First
Amendment vagueness and overbreadth. Since the
analysis of the two claims is essentially the same in

App. 70
this context, the court’s analysis above precludes a
finding of overbreadth.
Therefore, the defendant’s motion for summary
judgment as to the plaintiffs’ First Amendment
overbreadth claim is being granted.
E. First Amendment – Prior Restraint
The plaintiffs contend that the provisions in the
2003 and 2007 ordinances with respect to licensing,
denial, nonrenewal, suspension and revocation
represent prior restraints. The defendants counter that
the ordinances do not impose any impermissible prior
restraint.
1. Procedural Protections
“Where expression is conditioned on governmental
permission, such as a licensing system for movies, the
First Amendment generally requires procedural
protections to guard against impermissible censorship.”
See Freedman v. Md., 380 U.S. 51, 58 (1965). Thus, for
a licensing scheme that implicates speech to pass
constitutional muster:
(1) any restraint imposed prior to judicial review
must be limited to “a specified brief period”;
(2) any further restraint prior to a final judicial
determination must be limited to “the shortest
fixed period compatible with sound judicial
resolution”; and (3) the burden of going to court
to suppress speech and the burden of proof in
court must be placed on the government.

App. 71
John Doe, Inc. v. Mukasey, 549 F.3d 861, 871 (2d Cir.
2008) (quoting Freedman 380 U.S. at 58-59); see also
FW/PBS, Inc. v. City of Dallas, 493 U.S. 215, 227
(1990); Thomas v. Chicago Park District, 534 U.S. 316,
321 (2002).
The plaintiffs claim the ordinances do not provide
for prompt judicial review in accordance with the third
Freedman factor. In City of Littleton v. Z.J. Gifts D-4,
L.L.C., the Supreme Court examined whether a
Colorado adult business licensing ordinance which did
not explicitly provide for judicial review provided
sufficient judicial review through the state’s normal
procedures to satisfy the third Freedman factor. 541
U.S. 774 (2004). In upholding the licensing scheme, the
Court noted that it “does not seek to censor material,”
id. at 783 (emphasis in original), but rather “applies
reasonably objective, nondiscretionary criteria
unrelated to the content of the expressive materials
that an adult business may sell or display.”19 The Court
thus concluded:
[w]here . . . the regulation simply conditions the
operation of an adult business on compliance
with neutral and nondiscretionary criteria and
does not seek to censor content, and adult
business is not entitled to an unusually speedy
19

The Littleton ordinance provided that “an adult business license
‘shall’ be denied if the applicant (1) is underage; (2) provides false
information; (3) has within the prior year had an adult business
license revoked or suspended; (4) has operated an adult business
determined to be a state law ‘public nuisance’ within the prior
year. . .” along with other similarly non-discretionary criteria.
Littleton, 541 U.S. at 783.

App. 72
judicial decision . . . . Colorado’s rules provide for
a flexible system of review in which judges can
reach a decision promptly in the ordinary case,
while using their judicial power to prevent
significant harm to the First Amendment
interests where circumstances require.
Id. at 784.
While the plaintiffs concede that Littleton allows for
judicial review through the state’s normal procedures
when the licensing decision is based on “reasonably
objective nondiscretionary criteria,” id. at 782-83, they
contend that such a standard applies only when the
state’s rules for judicial review are adequate. The
plaintiffs argue that Connecticut law is procedurally
inadequate because it does not afford a right of judicial
appeal from the decision of a town council.
In Gold Diggers, the court addressed concerns
identical to the plaintiffs’ concerns here. The court
concluded that “[a]n aggrieved applicant can also
obtain adequate prompt judicial review through state
or federal judicial review procedures by filing an
application for a writ of mandamus or temporary
injunction in superior court or, if appropriate, an action
for injunctive or declaratory relief pursuant to § 1983.”
469 F. Supp. 2d at 57; see also Littleton, 541 U.S. at
774 (noting that if the state’s judicial review process
were inadequate, “federal remedies would provide an
additional safety valve”). The court finds the reasoning
in Gold Diggers persuasive.

App. 73
Thus, the plaintiffs’ argument that the ordinances
do not include sufficient procedural protections is
unpersuasive.
2. Renewal and Revocation Requirements
The plaintiffs argue that allegedly draconian
suspension and revocation provisions of the 2003 and
2007 ordinances amount to a prior restraint on speech
insofar as they are (a) impermissibly harsh, and
(b) restrict future speech as punishment for past
speech.
As to the first point, the plaintiffs claim that the
suspension and other penalty mechanisms of the
ordinance are unduly harsh. However, the dangers of
prior restraint are “impermissible censorship” caused
when a determining body has “overly broad licensing
discretion.” See Freedman, 380 U.S. at 56. In Gold
Diggers, the court was presented with an identical
argument and interpreted the argument as a challenge
under O’Brien. 469 F. Supp. 2d at 58. The court in Gold
Diggers distinguished the cases the plaintiffs relied
upon, Millennium Restaurants Group, Inc. v. City of
Dallas, 181 F. Supp. 2d 658 (N.D. Tex. 2001), and
Admiral Theatre v. City of Chicago, 832 F. Supp. 1195
(N.D. Ill. 1993) (which are the same cases the plaintiffs
rely on in this case), noting that Admiral “does not . . .
preclude imposing a prohibition on future protected
speech as a punishment for past speech that has been
adjudicated to be illegal,” 832 F. Supp. at 1205, and
that, unlike Millenium, the ordinance challenged in
Gold Diggers “premises revocation on misconduct
known to the licensee, employee or operator.” 469 F.
Supp. 2d at 58. Also, the court in Gold Diggers

App. 74
concluded that a suspension that may not exceed 30
days is reasonable under O’Brien’s fourth prong, and
that “[t]he ordinance’s restrictions on expression are
cabined to those instances where a licensee knowingly,
and either repeatedly or without correction, operates a
sexually oriented business in a manner that
contributes to negative secondary effects or fails to
comply with the law.” Id. The court finds the analysis
in Gold Diggers equally applicable here.
The plaintiffs argue that the ordinances impose a
prior restraint by restricting future speech based on
prior misconduct. However, “[a]n adult entertainment
license may be constitutionally withheld, suspended or
revoked when the licensee has violated valid provisions
of a licensing ordinance.” Gold Diggers, 469 F. Supp. 2d
at 58 (citing Schultz v. City of Cumberland, 228 F.3d
831, 853 (7th Cir. 2000)). It is well-established that
licensing schemes, including the power to approve,
deny, revoke or suspend licenses, are constitutional so
long as they comply with constitutionally-mandated
procedural requirements. See, e.g., Littleton, 541 U.S.
774 (upholding a adult-oriented business licensing
scheme after determining that the ordinance’s
procedures conformed with constitutional
requirements).
3. Standing to Challenge the Criminal
Disability Provisions
The plaintiffs contend that the criminal disability
provisions of the statute amount to a prior restraint on
speech, arguing that “prohibiting individuals from
engaging in expressive activities because of a past
criminal conviction violates the constitutional rights of

App. 75
‘operators’ and ‘applicants.’” (Pls.’ Mem. Supp. Mot.
Summ. J. 32). The plaintiffs claim to have standing
because under the ordinances, they are required to pay
a licensing fee, a portion of which is “clearly devoted to
undertaking a criminal background check.” (Id. at 32
n.27.) The defendant argues that the plaintiffs lack
standing to challenge these provisions, and the court
agrees.
“To establish standing to challenge [the criminal
disability provision of a sexually oriented business
licensing scheme] the individual must show both (1) a
conviction of one or more of the enumerated crimes,
and (2) that the conviction or release from confinement
occurred recently enough to disable the applicant under
the ordinance.” FW/PBS, 493 U.S. at 234. An argument
identical to the plaintiffs’ assertion of standing was
rejected in Gold Diggers.
Here, as in Gold Diggers, the plaintiffs admit that
they have not been convicted of any crime relating to
the criminal disability provisions. See 469 F. Supp. 2d
at 53. Thus, the plaintiffs do not have standing to
challenge this provision
Therefore, the plaintiffs’ motion for summary
judgment on the First Amendment prior restraint
claim is being denied, and the defendant’s motion for
summary judgment on the First Amendment prior
restraint claim is being granted.
F. Fifth Amendment – Takings
The defendant moves for summary judgment on the
plaintiffs’ Takings claim. The plaintiffs contend that
the buffer zone and the reconfiguration requirement

App. 76
are unconstitutional takings in violation of the Fifth
Amendment. The plaintiffs assert that the City is not
entitled to summary judgment on the Takings claim
because the ordinances’ requirements would
“essentially put them out of business.” (Pls.’ Resp.
Def.’s Mot. Summ. J. 50.)
The Takings Clause of the Fifth Amendment
provides that no “private property shall be taken for
public use, without just compensation.” U.S. Const.
Amend. V. The clause applies to the states through the
Fourteenth Amendment. See Kelo v. New London, 545
U.S. 469, 472 n.1 (2005).
The law recognizes two species of takings:
physical takings and regulatory takings.
Physical takings (or physical invasion or
appropriation cases) occur when the government
physically takes possession of an interest in
property for some public purpose.... [R]egulatory
takings... do not involve a categorical
assumption of property. The gravamen of a
regulatory taking claim is that the state
regulation goes too far and in essence “effects a
taking.”
Buffalo Teachers Federation v. Tobe, 464 F.3d 362, 374
(2d Cir. 2006).
The plaintiffs have not identified a specific property
interest affected by the ordinances, nor have they
advanced an argument as to why that interest is a
protectable property interest pursuant to the Fifth
Amendment. See Gammoh v. City of La Habra, 395
F.3d 1114, 1122 (9th Cir. 2005) (“The takings clause of

App. 77
the Fifth Amendment protects private property from
being taken for public use without just compensation.
‘In order to state a claim under the Takings Clause, a
plaintiff must first demonstrate that he possesses a
property interest that is constitutionally protected.’
The Appellants have not here pointed to a ‘property
interest’ interfered with by the City of La Habra’s
regulation of the dancers’ conduct. The district court
thus properly dismissed the Appellants’ takings claim.”
(internal citations and emphasis omitted)).
Assuming arguendo that the plaintiffs’ protectable
property interest is in the continued economic viability
of their property, “we weigh three factors to determine
whether the interference with property rises to the
level of a taking: (1) the economic impact of the
regulation on the claimant; (2) the extent to which the
regulation has interfered with distinct investmentbacked expectations; and (3) the character of the
governmental action.” Buffalo Teachers Fed., 464 F.3d
at 375 (quoting Connoly v. Pension Benefit Guar. Corp.,
475 U.S. 211, 224 (1986)). There is a “heavy burden
placed upon one alleging a regulatory taking.”
Keystone Bituminous Coal Ass’n v. DeBenedictis, 480
U.S. 470, 493 (1987). Furthermore, a regulatory taking
will not be found where a plaintiff “retains an
‘economically viable’ use of its property.” Hertz Corp. v.
New York City, 1 F.3d 121, 132 (2d Cir. 1993); see also
Penn Cent. Transp. Co. v. City of New York, 438 U.S.
104, 138 n.36 (1978) (“We emphasize that our holding
[that no taking has occurred] . . . is based on Penn
Central’s present ability to use the Terminal for its
intended purposes and in a gainful fashion. . . . if
appellants can demonstrate at some point in the future

App. 78
that circumstances have so changed that the Terminal
ceases to be ‘economically viable,’ appellants may
obtain relief.”); Lucas v. S.C. Coastal Council, 505 U.S.
1003, 1015 (1992) (recognizing a regulatory taking
occurs when a “regulation denies all economically
beneficial or productive use of land”). Additionally, “the
submission that appellants may establish a ‘taking’
simply by showing that they have been denied the
ability to exploit a property interest that they
heretofore had believed was available for development
is quite simply untenable.” Penn Cent. Transp. Co., 438
U.S. at 130.
Here, the plaintiffs’ evidence of economic impact
falls into two categories: first, that the cost of
compliance with the regulations is prohibitive, and
second, that the reduced usable space in their
respective facilities as a result of the ordinance’s
requirements will result in a loss of profits. This
evidence, however, could not establish that Keepers
and After Dark have been deprived of all economically
viable use of their land. “That the plaintiffs may not
profit as much as they would otherwise is of no
consequence.” 2284 Corp. v. Shiffrin, 98 F. Supp. 2d
244, 251 (D. Conn. 2000) (citing Federal Home Loan
Mortg. Corp. v. N.Y. State Div. of Housing and Cmty.
Renewal, 83 F.3d 45, 48 (2d Cir. 1996)).
Thus, no taking has occurred, and the defendant’s
motion for summary judgment on the Takings claim is
being granted.

App. 79
G. Substantive Provisions
1. Licensing Fees
The plaintiffs contend that the licensing fees in the
ordinances are an unconstitutional tax on protected
expression. A license fee is constitutional if it is “not a
revenue tax, but one to meet the expense incident to
the administration of the [licensing statute] and to the
maintenance of public order in the matter licensed.”
Cox v. New Hampshire, 312 U.S. 569, 577 (1941)
(internal quotation marks omitted); see also Nat’l
Awareness Found. v. Abrams, 50 F.3d 1159, 1165 (2d
Cir. 1995) (“[F]ees that serve not as revenue taxes, but
rather as means to meet the expenses incident to the
administration of a regulation and to the maintenance
of public order in the matter regulated are
constitutionally permissible.”). Thus, “[l]icensing fees
used to defray administrative expenses are permissible,
but only to the extent necessary for that purpose.” E.
Conn. Citizens Action Grp. v. Powers, 723 F.2d 1050,
1056 (2d Cir. 1983). Furthermore, “enforcement costs
may be considered in assessing the constitutionality of
a licensing fee under the First Amendment.” Abrams,
50 F.3d at 1165 (citing United States Labor Party v.
Codd, 527 F.2d 118, 119-20 (2d Cir. 1975)).
Under the 2003 ordinance, the initial fee for an
adult oriented establishment license, to be submitted
with the license application, is $750. See § 2.3-6 (2003).
If the application is denied, half of the fee is returned
to the unsuccessful applicant. See id. The license
renewal fee, to be submitted with the license renewal
application, is $500. See id. If the renewal application

App. 80
is denied, half of that fee is returned. See § 2.3-7(2)
(2003).
Under the 2007 ordinance, the initial fee for a
sexually oriented business license, to be submitted with
the license application, is $250. See chs. 2.3-6 and 2.34(c) (2007). The annual license renewal fee, to be
submitted with the license renewal application, is $100.
See § 2.3-6 (2007). The initial fee for an employee
license is $150 with an annual renewal fee of $50. See
id.
The plaintiffs argue that the licensing fees are
unconstitutionally excessive. They argue that (a) the
provision for refunding 50% of the fee upon denial of an
application for a license demonstrates that the
refunded portion of the fee is intended by the City as a
tax for permission to engage in protected activity, and
(b) the City’s decision to reduce the fee in the 2007
ordinance constitutes an admission by the City that the
2003 fee was excessive.
The City estimates that it would cost $274.70 to
process each adult oriented business application,
$325.44 to conduct inspections of each business each
year, $109.88 for a license denial/appeal hearing, and
$940.00 to hire an attorney for the police chief/City for
the hearing. The City has shown that the estimated
costs of administering and enforcing of the ordinance
are reasonable, and the court concludes as to each
ordinance that in light of those costs, the license fee is
a nominal fee that serves the legitimate purpose of
defraying the expenses incident to the administration
and enforcement of the ordinance.

App. 81
Therefore, the plaintiffs’ motion for summary
judgment as to the licensing fees is being denied, and
the defendant’s motion for summary as to the licensing
fees is being granted.
2. Penalty Provisions
The plaintiffs argue that the penalty provisions of
the 2003 and 2007 ordinances20 violate the state
enabling statute, Conn. Gen. Stat. § 7-148(c)(10),21 by

20

Section 2.3-10 (2003 ordinance): “1. Any person, partnership or
corporation who is found to have violated this ordinance shall be
fined a definite sum not exceeding Ninety ($90.00) Dollars for each
such violation. 2. Each violation of this ordinance shall be
considered a separate offense, and any violation continuing more
than one hour of time shall be considered a separate offense for
each hour of violation.”
Section 2.3-15 (2007 ordinance): “[A] person who knowingly
violates, disobeys, omits, neglects, or refuses to comply with or
resists the enforcement of any of the provisions of this Chapter
shall be fined a definite sum not exceeding ninety dollars ($90.00)
for each violation. Each violation of this Chapter shall be
considered a separate offense, and any violation continuing more
than one hour of time shall be considered a separate offense for
each hour of violation.”
21

Conn. Gen. Stat. § 7-148(c)(10) provides that a municipality
“shall have the power to”:
Make all lawful regulations and ordinances in furtherance
of any general powers as enumerated in this section, and
prescribe penalties for the violation of the same not to
exceed one hundred dollars, unless otherwise specifically
provided by the general statutes. Such regulations and
ordinances may be enforced by citations issued by
designated municipal officers or employees, provided the
regulations and ordinances have been designated
specifically by the municipality for enforcement by citation

App. 82
not providing for enforcement by citation. In Gold
Diggers, the court concluded that Conn. Gen. Stat. § 7148(c)(10) does not require enforcement of municipal
ordinances by citation. See 496 F. Supp. 2d at 62-63
(concluding that the word “may” in Conn. Gen. Stat.
§ 7-148(c)(10), signifies a discretionary, rather than
mandatory, power to enforce an ordinance through
citation). The court finds Gold Diggers persuasive
authority and likewise concludes that the penalty
provisions of the 2003 and 2007 ordinances need not
provide for enforcement by citation to be in compliance
with Conn. Gen. Stat. § 7-148(c)(10).
Therefore, the plaintiffs’ motion for summary
judgment on the issue of the penalty provisions is being
denied.
3. Ban on Entry of Minors
The plaintiffs argue that §§ 2.3-3(3)22 and 2.34(3)(H)(iii)23 of the 2003 ordinance and § 2.3-17(d)24 of
in the same manner in which they were adopted and the
designated municipal officers or employees issue a written
warning providing notice of the specific violation before
issuing the citation.
(Emphasis added).
22

“No operator or employee of an adult-oriented establishment
shall allow or permit any minor... to loiter in any part of such
establishment including parking lots immediately adjacent to such
establishment used by patrons of such adult-oriented
establishment.” § 2.3-3 (2003).

23

“An applicant shall be unqualified [for an adult-oriented
establishment license] if... [the] applicant has been employed in an
adult oriented establishment in a managerial capacity within the

App. 83
the 2007 ordinance, which in effect prohibit the entry
of minors onto the premises of sexually oriented
businesses, are unconstitutionally overbroad in that
the provisions violate the right of minors to engage in
protected expression. The defendant argues that the
plaintiffs lack standing to challenge these provisions of
the ordinances.
“A party alleging overbreadth claims that although
a statute did not violate his or her First Amendment
rights, it would violate the First Amendment rights of
hypothetical third parties if applied to them.” Farrell,
449 F.3d at 498. However, parties bringing First
Amendment overbreadth challenges must still
demonstrate that they have suffered an injury-in-fact
pursuant to the standing requirement set forth by
Article III of the Constitution. See id. at 499 (“A party
may bring an overbreadth challenge where that party
satisfies the Article III requirement of ‘injury in fact’
. . . .”). An injury-in-fact must be “concrete and
particularized and . . . actual or imminent, not
conjectural or hypothetical.” Friends of the Earth, Inc.
v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 18081 (2000); see also Pac. Capital Bank, N.A. v. Conn.,
542 F.3d 341, 350 (2d Cir. 2008).

preceding twenty-four (24) months and knowingly... permitted any
person under the age of eighteen (18) to be in or upon the premises
of an adult entertainment business....” § 2.3-4(3)(H)(iii) (2003).
24

“It shall be a violation of this Chapter for any person to
knowingly allow a person under the age of eighteen (18) years on
the premises of a sexually oriented business.” § 2.3-17(d) (2007).

App. 84
The plaintiffs have failed to demonstrate that they
have suffered an injury in fact with respect to the
prohibition on the entry of minors. No minor is a party
to this action, nor have the plaintiffs argued or
provided any evidence suggesting that they have
suffered an injury as a result of these provisions.25 The
plaintiffs’ sole argument with respect to the provisions
prohibiting the entry of minors is that the provisions
infringe the First Amendment rights of minors, and
this argument, alone, is insufficient to demonstrate an
injury in fact suffered on the part of the plaintiffs
pursuant to the standing requirements of Article III.
Therefore, the plaintiffs’ motion for summary
judgment on the issue of the prohibition on the entry of
minors is being denied.

25

The plaintiffs do not argue or provide evidence to suggest that
they even desire for minors to enter their premises. The plaintiffs
have consistently described their businesses as providing
entertainment to consenting adults and have not provided any
evidence that even suggests that they have an interest in catering
to a non-adult audience. (See Compl. ¶ 12 (“Keepers is a “a
cabaret-style nightclub that features live, non-obscene, clothed and
semi-nude (“topless”) performance dance entertainment presented
to the consenting adult public.”); ¶ 15 (After Dark operates “a
retail entertainment establishment that sells, exhibits, and
distributes a variety of sexually explicit, but non-obscene, books,
magazines, video tapes and motion picture filmfare. . . . These
materials are made available in their various forms to consenting
adults only.”); ¶ 58 (“. . . rights of those individuals from the
consenting adult audience who desire to view and/or obtain the
entertainment provided/made available by the Plaintiffs.”).

App. 85
4. “No Payment” Provisions
The plaintiffs argue that the “no payment” provision
of the ordinances, which prohibits employees while
semi-nude from receiving pay or gratuity via direct
physical contact with patrons, is a violation of the First
Amendment and also a deprivation of liberty in
violation of the Fourteenth Amendment.
Section 2.3-3(7)(C) of the 2003 ordinance provides:
It shall be a violation of this Chapter for any
employee, while semi-nude in an adult-oriented
establishment, to knowingly or intentionally
receive any pay or gratuity by direct physical
contact with any patron or customer or for any
patron or customer to knowingly or intentionally
pay or give any gratuity by direct physical
contact with any employee, while said employee
is semi-nude in the adult-oriented
establishment.
The 2007 version omits the language of § 2.3-3(7)(C)
of the 2003 ordinance but accomplishes the same result
through § 2.3-17(c), which prohibits an employee who
“regularly appears semi-nude in a sexually oriented
business” from “knowingly or intentionally touch[ing]
a customer or the clothing of a customer on the
premises of a sexually oriented business.” § 2.3-17(c)
(2007).
a. First Amendment
The plaintiffs argue that these restrictions
impermissibly burden freedom of expression because
they serve as financial disincentives meant to drive

App. 86
disfavored expression from the market. Specifically, the
plaintiffs argue that the provision denies erotic dancers
the ability to profit from their expression by foreclosing
the possibility of receiving tips.
While the plaintiffs are correct that the government
cannot prohibit compensation for the exercise of First
Amendment rights, see, e.g., Simon & Schuster v.
Crime Victims Bd., 502 U.S. 105, 115-16 (1991), the
employees, however, remain free under the ordinances
to receive tips from customers via tip jars, from a
payment made to the sexually oriented business on the
employee’s behalf, or remuneration from the club itself.
“Alternatively, the [sexually oriented business] could
decide to increase dancers’ salaries, rather than
requiring them to earn a living wage from their tips.”
Deja Vu of Nashville, Inc. v. Metro. Gov’t of Nashville
and Davidson Co., 274 F.3d 377, 396-99 (6th Cir.
1997).26
Furthermore, to the extent that the plaintiffs argue
that the direct tipping provisions will cut into their
profits, “[t]he First Amendment requires only that [the
City] refrain from effectively denying [sexually oriented
business owners] a reasonable opportunity to open and
operate an adult [establishment] within the city . . . .”
Renton, 475 U.S. at 54 (1986). Cases addressing
ordinances similar to the one here are in accord. See
Deja Vu of Nashville, Inc., 273 F.3d at 397; DLS, Inc. v.
26

To the extent that the plaintiffs claim that the tipping limitation
burdens expression, i.e., a patron’s ability to express appreciation
for a dancer’s performance, this argument is, for the same reasons,
without merit. See Kev, Inc. v. Kitsap County, 793 F.2d 1053, 1062
(9th Cir. 1986).

App. 87
City of Cattanooga, 107 F.3d 403, 413 (6th Cir. 1997);
Jake’s, Ltd., Inc. v. City of Coates, 284 F.3d 884, 891
(8th Cir. 2002). Although compliance with the
ordinances may cut into the plaintiffs’ profits, the
plaintiffs have failed to produce evidence that could
show that they will not have a reasonable opportunity
to operate their establishments.
b. Fourteenth Amendment
The plaintiffs argue that “by effectively prohibiting
entertainers from receiving remuneration from their
customers for the constitutionally protected services
which they provide, and by prohibiting patrons from
giving performers such compensation, Milford has
unquestionably infringed on the liberty rights protected
by the Fourteenth Amendment.” (Pls.’ Mem. Supp. Mot.
Summ. J. 51.) In support of this argument, the
plaintiffs rely entirely on the Supreme Court’s decision
in Lawrence v. Texas, 539 U.S. 558 (2003).
In Lawrence, the Supreme Court ruled
unconstitutional a Texas statute which prohibited
homosexuals from engaging in sexual conduct with one
another. The Court stated:
There are other spheres of our lives and
existence, outside the home, where the State
should not be a dominant presence. Freedom
extends beyond spatial bounds. Liberty
presumes an autonomy of self that includes
freedom of thought, belief, expression, and
certain intimate conduct.
Id. at 562. However, as the Court made clear, Lawrence
“does not involve public conduct. . . . The case does

App. 88
involve two adults, who, with full and mutual consent
from each other, engaged in sexual practices common
to a homosexual lifestyle. The petitioners are entitled
to respect for their private lives.” Id. at 578. While the
Court noted that “[i]t is a promise of the Constitution
that there is a realm of personal liberty which the
Government may not enter,” id. (citing Planned
Parenthood v. Casey, 505 U.S. 833, 847 (1992)), it is
unclear how this statement in a case that clearly does
not involve public conduct is applicable here.
Therefore, the plaintiffs’ motion for summary
judgment on the issue of the “no payment” provision is
being denied.
5. Buffer Zone
The plaintiffs argue that the six-foot “buffer zone”
mandated by § 2.3(7)(B) of the 2003 ordinance and
§ 2.3-17(b) of the 2007 ordinance is an undue burden on
expressive conduct, violates the right to freedom of
association, and violates the fundamental right of
liberty.
Section 2.3-3(7)(B) of the 2003 ordinance provides in
relevant part:
It shall be a violation of this Chapter for a
person to knowingly or intentionally in an adultoriented establishment, appear in a semi-nude
condition unless the person is an employee who,
while semi-nude, shall be at least six (6) feet
from any patron or customer and on a stage at
least eighteen (18) inches from the floor . . . .

App. 89
The 2007 ordinance contains the identical provision but
adds the additional requirement that the stage on
which the employees must remain while semi-nude
must be “in a room of at least one thousand (1,000)
square feet.” § 2.3-17(b) (2007).
a. Power to Enact the Buffer Zone
The plaintiffs argue that the preambles to Chapter
2.3 do not articulate a specific rationale for the buffer
zone provision or, in the alternative, that the City’s
rationale for the buffer zone is impermissibly premised
on “the chance an unlawful act will be committed ‘at
some indefinite future time,’” Ashcroft v. Free Speech
Coalition, 535 U.S. 234, 245 (2002).27 The court
disagrees. It is clear from the ordinance’s stated
purpose and findings in § 2.3-1 that two of the
rationales for the adoption of the buffer zone are to
reduce the secondary effects of unsanitary conditions
and the potential spread of disease, which are
substantial interests of the City. Additionally, insofar
as this argument implicates reasonable time, place,
and manner restrictions under O’Brien, it has already
been rejected.
b. Freedom of Association
The plaintiffs argue that the buffer zone violates the
freedom of association because the government’s
substantial interests can be achieved through means
significantly less restrictive, as demonstrated by other

27

The plaintiff’s reliance on Ashcroft is misplaced as Ashcroft
addressed content-based regulation of speech, not a time, place,
and manner restriction as is at issue here. See 535 U.S. 234.

App. 90
less restrictive buffer zones upheld as constitutional by
other courts, such as the three-foot buffer zone upheld
in Deja Vu of Nashville, 274 F.3d at 396. The plaintiffs’
argument is unpersuasive. First, it should be noted
that the court in Deja Vu upheld the three-foot buffer
zone by relying on its prior holding in DLS, Inc. v. City
of Chattanooga, 107 F.3d 403, 410-11 (6th Cir. 1997),
which upheld a six-foot buffer zone. Also, buffer zones
of up to ten feet have been found to be constitutional.
See, e.g., Kev, Inc. v. Kitsap County, 793 F.2d 1053,
1061-62 (9th Cir. 1986) (“While the dancer’s erotic
message may be slightly less effective from ten feet, the
ability to engage in the protected expression is not
significantly impaired.”); Colacurcio v. City of Kent,
163 F.3d 545, 554 (9th Cir. 1998) (rejecting later buffer
zone challenge, relying on its decision in Kev).
Second, while the Supreme Court has recognized a
right to associate for the purpose of engaging in
activities protected by the First Amendment, “[t]he
right to associate for expressive purposes is not,
however, absolute.” Roberts v. U.S. Jaycees, 468 U.S.
609, 618 (1984); see also Deja Vu of Nashville, Inc. v.
Metropolitan Gov’t of Nashville and Davidson County,
274 F.3d 377, 396 (6th Cir. 2001), cert. denied, 535 U.S.
1073 (2002) (“We agree with the plaintiffs that the
First Amendment protects the entertainers and
audience members’ right to free expressive association.
They are certainly engaged in a ‘collective effort on
behalf of shared goals.’ . . . The right to associate for
expressive purposes, however, is not absolute....”).
“Infringements on that right may be justified by
regulations adopted to serve compelling state interests,
unrelated to the suppression of ideas, that cannot be

App. 91
achieved through means significantly less restrictive of
associational freedoms.” Roberts, 468 U.S. at 623.
“Mere incidental burdens on the right to associate do
not violate the First Amendment; rather, [t]o be
cognizable, the interference with [plaintiffs’]
associational rights must be ‘direct and substantial’ or
‘significant.’” Tabbaa v. Chertoff, 509 F.3d 89, 101 (2d
Cir. 2007) (internal quotations and citations omitted).
Here, the buffer zone provision is justified by the
City’s compelling interest in reducing public health
concerns associated with close proximity between
dancers and patrons. Any interference on these
associational rights that may be created by a six-foot
buffer zone is neither “substantial” nor “significant”.
Tabbaa, 509 F.3d at 101. “Roberts does not require the
government to exhaust every possible means of
furthering its interest; rather, the government must
show only that its interest ‘cannot be achieved through
means significantly less restrictive of associational
freedoms.’” Id. at 105 (emphasis in original) (quoting
Roberts, 468 U.S. at 623). The court concludes that the
City’s interest cannot be achieved through means
significantly less restrictive of these associational
freedoms.
c. Fundamental Right to Liberty
The plaintiffs argue that the buffer zone restriction
violates the dancers’ fundamental right to liberty and
privacy guaranteed by the Due Process Clause of the
Fourteenth Amendment by restricting the dancers’
liberty right to move from one place to another, citing
City of Chicago v. Morales, 527 U.S. 41 (1999), and
their right to intimate conduct, citing Lawrence v.

App. 92
Texas, 539 U.S. 558 (2003). However, the plaintiffs’
reliance on Morales is misplaced because the Court in
Morales acknowledged a “right to remove from one
place to another,” not a right to be in any location.
Morales, 527 U.S. at 53; see also Williams v. Town of
Greenburgh, 535 F.3d 71, 75 (2d Cir. 2008) (“it is clear
that the right” to intrastate travel “protects movement
between places and has no bearing on access to a
particular place” (emphasis in original)). In addition,
the plaintiffs’ reliance on Lawrence is misplaced
because Lawrence did not recognize a broad right to
engage in sexual or intimate conduct outside of private
settings. See Lawrence, 539 U.S. at 578 (2003).
d. Freedom of Expressive Conduct
The plaintiffs argue that the buffer zone burdens
more speech than is necessary to serve the relevant
government interests because the buffer zone “floats.”
The plaintiffs argue that the six-foot distance would
prevent the entertainers from communicating their
message from a normal conversational distance and
would interfere with their dancing because the dancers
would be preoccupied with maintaining the distance
between themselves and numerous patrons.
Floating buffer zones can burden more speech than
is necessary to serve the relevant governmental
interests when they create a “lack of certainty” that
“leads to a substantial risk that much more speech will
be burdened than the [ordinance] by its terms
prohibits,” and when they prevent speakers from
“communicating a message from a normal
conversational distance.” Schenck v. Pro-Choice
Network Of W.N.Y., 519 U.S. 357, 377-78 (1997); see

App. 93
also U.S. v. Scott, 187 F.3d 282, 288-89 (2d Cir. 1999);
N.Y. ex rel. Spitzer v. Operation Rescue Nat’l, 273 F.3d
184, 204 (2d Cir. 2001) (holding that a buffer zone was
unconstitutional, in part because it prevented
protesters from communicating at a normal
conversational distance).
While the ordinances’ buffer zone “floats” in that it
surrounds the dancers, the court concludes that the
buffer zone would not burden more speech than
necessary to serve the City’s substantial interests in
preventing unsanitary conditions and the potential
spread of disease. First, any lack of certainty that the
buffer zone would create is minimal and maintaining
six feet of separation “would not be difficult to
accomplish” because the buffer zone only exists around
dancers when they are on stage. Shenck, 519 U.S. at
378. Thus, the sexually oriented business could create
a six-foot buffer around the edge of the stage, allowing
the dancers to dance freely on any portion of the stage
or could create a six-foot buffer by marking the portions
of the stage on which the dancers could dance freely.
Furthermore, the buffer zone would not prevent the
dancer from communicating at a normal conversational
distance. The dance can be communicated easily
between dancer and patron from a distance of six feet.
See Hill v. Colorado, 530 U.S. 703, 726-27 (2000)
(holding that an eight-foot separation between a
speaker and his or her audience “should not have any
adverse impact on the readers’ ability to read signs
displayed by demonstrators” and thus the eight-foot
zone allows the speaker to communicate at a “normal
conversational distance.”); Kev, Inc. v. Kitsap County,

App. 94
793 F.2d 1053, 1061-62 (9th Cir. 1986) (“While the
dancer’s erotic message may be slightly less effective
from ten feet, the ability to engage in the protected
expression is not significantly impaired.”). Thus, the
court concludes that the fact that the ordinances’ buffer
zone floats does not implicate the concerns associated
with floating buffer zones.
Therefore, the plaintiffs’ motion for summary
judgment on the issue of the buffer zone provision is
being denied, and the defendant’s motion for summary
judgment on the issue of the buffer zone provision is
being granted.
6. “No Touch” Provision
The plaintiffs challenge the “no touch” provision of
the ordinances as impermissibly overbroad and in
violation of the rights to freedom of association and
substantive due process.
Section 2.3-3(7)(D) of the 2003 ordinance provides:
It shall be a violation of this Chapter for any
employee, while semi-nude in an adult-oriented
establishment, to knowingly or intentionally
touch a customer or the clothing of a customer.
Section 2.3-17(c) of the 2007 ordinance expands the
prohibited conduct to include physical contact between
certain employees and customers, regardless of the
state of dress of those employees at the time of the
contact:
It shall be a violation of this Chapter for any
employee who regularly appears semi-nude in a

App. 95
sexually oriented business to knowingly or
intentionally touch a customer or the clothing of
a customer on the premises of a sexually
oriented business.
Section 2.3-17(c) (2007).
An identical argument was made in Gold Diggers
and rejected there. See Gold Diggers, 469 F. Supp. 2d
at 63-65. The court finds Gold Diggers persuasive
authority on this issue.
Therefore, the plaintiffs’ motion for summary
judgment on the issue of the “no touch” provision is
being denied, and the defendant’s motion for summary
judgment on the issue of the “no touch” provision is
being granted.
7. Public Posting
The plaintiffs argue that § 2.3-4(5) of the 2003
ordinance and § 2.3-5(c) of the 2007 ordinance, which
require that a sexually oriented business post its
license “in a conspicuous place at or near the entrance
to the sexually oriented business,” violate their First
Amendment right to engage in speech anonymously.
Specifically, the plaintiffs argue that the ordinances
violate that right because the ordinances require that
the names of the person or persons to whom a license
is granted appear on the face of the license and require
that the license be posted publicly. The defendant
contends that the public posting requirements do not
run infringe the plaintiffs’ First Amendment rights.
The court concludes that the 2003 ordinance’s public
posting requirement is constitutional, and that the

App. 96
2007 public posting requirement is unconstitutionally
overbroad.
The Supreme Court has recognized a right to
anonymous speech grounded in the First Amendment
freedoms of speech and association. See, e.g., NAACP
v. Alabama, 357 U.S. 449, (1958) (holding that the
State of Alabama could not compel the NAACP to
reveal to the State’s Attorney General lists of its
members’ names and addresses); McIntyre v. Ohio
Elections Comm’n, 514 U.S. 334 (1995) (invalidating an
Ohio statute that prohibited the distribution of
anonymous campaign literature); Talley v. California,
362 U.S. 60 (1960) (invalidating a Los Angeles
ordinance that prohibited the distribution of handbills
without the names and addresses of persons who
prepared, distributed, or sponsored the handbills);
Bates v. City of Little Rock, 361 U.S. 516 (1960)
(upholding the NAACP’s refusal to provide the names
of its members to municipal tax officials); Buckley v.
American Constitutional Law Foundation, Inc., 525
U.S. 182, 200 (1999) (holding that the First
Amendment was violated by a Colorado statute
requiring persons who circulated petitions for an
initiative to wear identification badges revealing their
names).
However,
[w]hile the First Amendment protects the rights
of citizens to express their viewpoints, however
unpopular, it does not guarantee ideal conditions
for doing so, since the individual’s right to
speech must always be balanced against the
state’s interest in safety, and its right to

App. 97
regulate conduct that it legitimately considers
potentially dangerous.
Church of American Knights of the Ku Klux Klan v.
Kerik, 356 F.3d 197, 209 (2d Cir. 2004) (citing Arcara
v. Cloud Books, Inc., 478 U.S. 697, 706 (1986)).
“[C]ompelled disclosure, in itself, can seriously
infringe on privacy of association and belief guaranteed
by the First Amendment.” Buckley v. Valeo, 424 U.S. 1,
64 (1976). However, such disclosure is justified to
further a substantial government interest when there
is a “relevant correlation” or “substantial relation”
between the governmental interest and the information
required to be disclosed. Id.; see also John Doe No. 1 v.
Reed, --- U.S. ---, 130 S.Ct. 2811, 2818 (2010). To meet
this standard, “the strength of the governmental
interest must reflect the seriousness of the actual
burden on First Amendment rights.” governmental
interest must reflect the seriousness of the actual
burden on First Amendment rights.” John Doe No. 1,
130 S. Ct. at 2814 (quoting Davis v. Federal Election
Comm’n, 554 U.S. 724, 744 (2008).)
a. 2003 Ordinance
Section 2.3-4(5) of the 2003 ordinance requires that
“[t]he license, if granted, shall state on its face the
name of the person or persons to whom it is granted,
the expiration date, and the address of the adultoriented business” and “shall be posted in a
conspicuous place at or near the entrance to the adultoriented business so that it may be easily read at any
time.” § 2.3-4(5) (2003). The “person or persons to
whom [the license] is granted”, in other words, the

App. 98
license applicants, includes “operators” and “any
persons directly involved in the management and
control of the adult-oriented establishment.” § 2.3-4(3)
(2003). “Operators” are defined as “any person, or any
proprietor, shareholder, general partner or limited
partner who participates in the management or day-today operations and/or control of the establishment.”
§ 2.3-2(14) (2003). Pursuant to § 2.3-5, if the applicant
is an “enterprise” the applicant “shall designate an
officer or partner as applicant.” § 2.3-5 (2003).
The City argues that it has a substantial interest in
“regulating those who control and operate sexually
oriented businesses.” The purpose of its public posting
requirement, as stated on the face of the requirement,
is “so that [the license] may be read at any time.” § 2.34(5) (2003). The City argues that the requirement that
the license holder’s name be stated on the license and
posted publicly furthers the government’s substantial
interest in enforcing the ordinance by allowing City
officials and law enforcement agents to readily identify
those who are responsible for the operation of a
sexually oriented business for purposes of routine
inspections and criminal investigations.
The court concludes that the City has a substantial
interest in enforcing its ordinance, and also concludes
that there is a substantial relation between the City’s
interest in being able to readily identify the names of
the people who control and operate the business so the
City knows who to contact for purposes of enforcing the
ordinance, and the name of the license holder, who
pursuant to §§ 2.3-4(3) and 2.3-5, manages, operates or
controls the establishment. See Acorn Inv., Inc. v. City

App. 99
of Seattle, 887 F.2d 219, 226 (9th Cir. 1989) (regulating
the protected activity is a legitimate and substantial
governmental interest); E. Brooks Books, Inc. v. City of
Memphis, 48 F.3d 220, 226 (6th Cir. 1995) (city has a
legitimate interest in identifying those who are legally
accountable for the operation of a sexually oriented
business); Genusa v. City of Peoria, 619 F.2d 1203,
1216-17 (7th Cir. 1980) (enforcement of ordinance
provisions is a legitimate and substantial government
interest); Brownell v. City of Rochester, 190 F. Supp. 2d
472, 502 (W.D.N.Y. 2001) (city has a substantial
interest in knowing who is actually running or
otherwise responsible for the operation of sexually
oriented businesses).
b. 2007 Ordinance
Section 2.3-5(c) of the 2007 ordinance requires that
the “license shall be posted in a conspicuous place at or
near the entrance to the sexually oriented business so
that it may be read at any time that the business is
occupied by patrons or is open to the public.”
Section 2.3-4(d) of the 2007 ordinance requires, in
relevant part, that “each person with an influential
interest in the sexually oriented business or in a legal
entity that controls the sexually oriented business shall
sign the application for a license as applicant.” The
ordinance in turn defines “influential interest” as:
(1) the actual power to operate the sexually
oriented business or control the operation,
management or policies of the sexually oriented
business or legal entity which operates the
sexually oriented business, (2) ownership of a

App. 100
financial interest of thirty percent (30%) or more
of a business or of any class of voting securities
of a business, or (3) holding an office (e.g.,
president, vice president, secretary, treasurer,
managing member, managing director, etc.) in a
legal entity which operates the sexually oriented
business.
§ 2.3-2 (2007).
The court concludes that the City’s substantial
interest in the posting requirement is the same as it
was with respect to the 2003 ordinance, because the
City has an interest in enforcing the ordinance.
However, the court concludes that the scope of the
posting provision is unconstitutionally broad because
there is not a substantial relationship between the
governmental interest and the information required to
be posted. While requiring the posting of the names of
the individuals who manage, operate and/or control a
sexually oriented business is substantially related to
enforcement of the ordinance, posting the names of
individuals based merely on their status as a 30%
shareholder or an officer not involved in the
management, operation or control of the sexually
oriented business is not substantially related to the
City’s interest in enforcing the ordinance. See Lady J.
Lingerie, Inc. v. City of Jacksonville, 176 F.3d 1358,
1367 (11th Cir. 1999) (“[S]tockholders, qua
stockholders, do not run corporations; officers and
directors do. The City can enforce its rules through
them.”); Acorn Inv., Inc. v. City of Seattle, 887 F.2d
219, 225-26 (9th Cir. 1989)(“Because officers and
directors, not shareholders, are legally responsible for

App. 101
the management of a corporation’s business,” there was
“no logical connection between the City’s legitimate
interest in compliance with the . . . ordinance and the
rule requiring disclosure of the names of
shareholders.”); E. Brooks Books, 48 F.3d at 226 (“We
agree that the City has a legitimate interest in
identifying those who are legally accountable for the
operation of a sexually oriented business, and perhaps
those who have a controlling or significant share in
such a business. The requirement that every person
with any ownership interest, regardless of how small,
sign the application, however, is impermissibly
broad.”); Genusa v. City of Peoria, 619 F.2d 1203, 121617 (7th Cir. 1980) (invalidating an ordinance requiring
all stockholders owning more than 10% of the stock of
an applicant to submit various personal data to
licensing officials). Thus, the court concludes that § 2.35(c) of the 2007 ordinance is unconstitutional to the
extent that it requires the posting of the names of
individuals who do not manage, operate or control the
sexually oriented business.
Therefore, the plaintiffs’ motion for summary
judgment on the issue of the public posting
requirement is being denied as to the 2003 ordinance
and granted as to the 2007 ordinance.
8. Administrative Inspection
The defendant moves for summary judgment on the
claim that the periodic administrative inspections
required by § 2.3-3(6) of the 2003 ordinance28 and § 2.328

“The operator shall insure compliance of the adult-oriented
establishment and its patrons with the provisions of this

App. 102
7 of the 2007 ordinance29 violate the Fourth
Amendment right against unreasonable searches and
unconstitutionally condition a grant of a governmental
privilege upon the waiver of constitutional rights in
violation of the First and Ninth Amendments. The
plaintiffs have not responded to the defendant’s motion
for summary judgment on any of these claims, and the
court deems them abandoned. See Carone v. Mascolo,
573 F. Supp. 2d 575, 591 (“Federal courts may deem a
claim abandoned when a party moves for summary
judgment on one ground and the party opposing
summary judgment fails to address the argument in
any way.”) (quoting Taylor v. City of New York, 269 F.
Supp. 2d 68, 75 (E.D.N.Y. 2003)); see also Bronx
Chrysler Plymouth, Inc. v. Chrysler Corp., 212 F. Supp.
2d 233, 249 (S.D.N.Y. 2002) (dismissing breach of

ordinance. Adult-oriented establishments and their employees
shall permit officers or guests of the City to inspect, from time to
time on an occasional basis, the portions of the sexually oriented
business premises where any patron is permitted, for the purpose
of ensuring compliance with this Chapter, during those times when
the sexually oriented business is occupied by patrons or is open for
business.” § 2.3-3(6) (2003).
29

“Sexually oriented businesses and sexually oriented business
employees shall permit the Administrator and his or her agents to
inspect, from time to time on an occasional basis, the portions of
the sexually oriented business premises where patrons are
permitted, for the purpose of ensuring compliance with the specific
regulations of this Chapter, during those times when the sexually
oriented business is occupied by patrons or is open to the public.
This section shall be narrowly construed by the City to authorize
reasonable inspections of the licensed premises pursuant to this
Chapter, but not to authorize a harassing or excessive pattern of
inspections.” § 2.3-7 (2007).

App. 103
contractual duty of good faith claim as abandoned
because plaintiff’s summary judgment opposition
papers made no argument in support of the claim at
all).
Therefore, the defendant’s motion for summary
judgment on the issue of the periodic administrative
inspections is being granted.
9. Conn. Gen. Stat. § 8-2
The City contends that it is entitled to summary
judgment on the claim that §§ 2.3-13 and 2.3-17(b)30 of
the 2007 ordinance, which regulate the interior
configuration of sexually oriented businesses, violate
§ 8-2 of the Connecticut General Statutes. Section 82(a) provides in relevant part that “zoning regulations
. . . shall not prohibit the continuance of any
nonconforming use, building or structure existing at
the time of the adoption of such regulations.” Conn.
Gen. Stat. § 8-2(a). The plaintiffs claim that § 2.3-13
and § 2.3-17(b) violate their right under Conn. Gen.
Stat. § 8-2 to continue a non-conforming structure
because the ordinance would require the plaintiffs to
make substantial renovations to their existing
buildings to be in compliance with the ordinance.
The City argues that Conn. Gen. Stat. § 8-2 governs
only municipal zoning regulations, that the 2007
30

Section 2.3-17(b) provides, in relevant part, that employees,
“while semi-nude” must “remain... on a stage at least eighteen (18)
inches from the floor in a room of at least one thousand (1,000)
square feet.” Where the plaintiffs in the complaint and their
briefing refer to the language of § 2.3-17(b) as § 2.3-18(b), the court
assumes that the plaintiffs meant to refer to § 2.3-17(b).

App. 104
ordinance is not a zoning ordinance, and consequently
Conn. Gen. Stat. § 8-2 is inapplicable. The plaintiffs
argue that § 8.2 grants a right to continue nonconforming uses that is not limited to the context of
zoning ordinances. The court concludes that any right
to continue non-conforming uses granted by Conn. Gen.
Stat. § 8-2 is limited to the context of zoning
ordinances, and that the 2007 ordinance is not a zoning
ordinance so Conn. Gen. Stat. § 8-2 is inapplicable.
Connecticut law recognizes the distinction between
zoning regulations and general police power
regulations. See State ex rel. Spiros v. Payne, 131
Conn. 647, 652 (1945) (determining whether town
regulation was “a part of the general plan of zoning” or
“an independent police regulation”); O’Meara v. City of
Norwich, 167 Conn. 579, 583 (1975) (“There is a
distinction, however, between the council acting in its
general legislative capacity and promulgating
independent police regulations, and acting in its
capacity as a zoning authority.”).
The Connecticut Supreme Court defines zoning as
“a general plan to control and direct the use and
development of property in a municipality or a large
part of it by dividing it into districts according to the
present and potential use of properties.” State ex rel.
Spiros v. Payne, 131 Conn. 647, 652 (1945). To
determine whether a municipal ordinance is a zoning
ordinance, the court looks to “the nature and purpose
of the ordinance, its relation to the general plan of
zoning in the city, its provisions and the terms it uses.”
Id. The 2007 ordinance does not divide the City into
districts, nor does it contain any locational restrictions

App. 105
on sexually oriented businesses. As noted, its function
is to regulate sexually oriented businesses throughout
the municipality by a licensing procedure. Thus, the
2007 ordinance is not a zoning ordinance and is not
governed by Conn. Gen. Stat. § 8-2(a). See Gold
Diggers, 469 F. Supp. 2d at 66; VIP of Berlin, LLC v.
Town of Berlin, 50 Conn. Supp. 542, 560 (2007), aff’d,
287 Conn. 142 (2008) (where an ordinance’s locational
restrictions did not divide the town into districts and
the purpose of the ordinance is to regulate sexually
oriented businesses throughout the town by a licensing
procedure, the ordinance was not a zoning ordinance
but was a regulation of adult uses pursuant to the
town’s legitimate police power).
Therefore, the defendant’s motion for summary
judgment on the claim that the ordinances violate
Conn. Gen. Stat. § 8-2 is being granted.
IV. CONCLUSION
The plaintiffs’ Motion for Partial Summary
Judgment (Doc. No. 49) is hereby GRANTED in part
and DENIED in part. The plaintiffs’ motion for
summary judgment is being granted with respect to the
public posting requirement of the 2007 ordinance, and
denied in all other respects.
The Defendant’s Motion for Summary Judgment
(Doc. No. 53) is hereby GRANTED in part and
DENIED in part. The defendant’s motion for summary
judgment is being granted in all respects except with
respect to the public posting requirement of the 2007
ordinance.
It is so ordered.

App. 106
Dated this 30th day of March, 2013, at Hartford,
Connecticut.
/S/AWT
Alvin W. Thompson
United States District Judge

